APPENDIX

1a
APPENDIX A

United States Court of Appeals
for the Fifth Circuit
United States Court of Appeals
Fifth Circuit

FILED

No. 20-60067

UNITED STATES OF AMERICA,

March 10, 2021
Lyle W. Cayce
Clerk

Plaintiff-Appellant,
versus
MELECIA BALTAZAR-SEBASTIAN,
Defendant-Appellee,
Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 3:19-CR-173-1
Before BARKSDALE, SOUTHWICK, and GRAVES, Circuit
Judges.
RHESA HAWKINS BARKSDALE, Circuit Judge:
Primarily at issue is whether the United States Department of Homeland Security’s Immigration and Customs Enforcement Agency (ICE) may, under the Immigration and Nationality Act (INA), 8 U.S.C. § 1101 et seq.,
civilly detain a criminal defendant after she has been

2a
granted pretrial release pursuant to the Bail Reform Act,
18 U.S.C. § 3141 et seq. We hold there is no conflict between the statutes preventing defendant’s detainment.
VACATED.
I.
Melecia Baltazar-Sebastian is a Guatemalan citizen
residing in the Southern District of Mississippi. In August
2019, she was arrested at her place of employment during
an ICE worksite enforcement action. After Baltazar admitted she was not in possession of proper immigration
documents, ICE took her into custody. She was civilly
charged with being inadmissible under the INA and was
booked into an ICE processing center in Jena, Louisiana
(there are no ICE facilities in Mississippi dedicated to
more than 72-hours’ detention). See 8 U.S.C. § 1226(a).
Later that month, a grand jury in Mississippi indicted
Baltazar for misusing a social-security number, in violation of 42 U.S.C. § 408(a)(7)(B). A warrant was issued for
her arrest; and, in response, ICE transferred her to the
United States Marshal for the Southern District of Mississippi for her initial appearance on her indictment. Before she was transferred, however, ICE lodged a detainer,
which advised the Marshal that it sought custody of
Baltazar in the event of her release (ICE detention). See
8 C.F.R. § 287.7(a).
In September, after Baltazar pleaded not guilty to
her criminal charges, the magistrate judge held a hearing
in Jackson, Mississippi, to determine Baltazar’s eligibility
for pretrial release under the Bail Reform Act (BRA).
Concluding she was not a flight risk or danger to the community, the magistrate judge ordered her released on
bond subject to conditions (September release order). See
18 U.S.C. § 3142(b). The conditions required, inter alia,
that she “remain in the Southern District of Mississippi at
all times during the pendency of these proceedings unless

3a
special permission is obtained from the Court”. The Government did not then challenge the September release order. See 18 U.S.C. § 3145(a).
Notwithstanding the September release order, ICE
retook custody of Baltazar based on its prior detainer and
returned her to its detention facility in Jena, Louisiana
(almost 200 miles away). In late September, while she remained in ICE detention, a magistrate judge granted the
United States’ motion for writ of habeas corpus ad prosequendum to facilitate Baltazar’s appearance at a pretrial
hearing in Jackson, Mississippi, for her criminal case.
Baltazar then requested a hearing in that case to clarify
her status under the September release order, maintaining her civil ICE detention was unlawful because of the
September release order.
After an October hearing in Mississippi, the district
court granted Baltazar’s request to enforce the September release order, precluding ICE detention (October enforcement order). In that regard, the court stated: “Once
the criminal matter is concluded the Executive Branch
may continue its immigration proceedings”. In December,
the court denied the Government’s motion for reconsideration of the October enforcement order (December order). The court reasoned ICE’s detainment would “circumvent” the September release order. The Government
appealed the December order. On the Government’s motion, the district court stayed Baltazar’s criminal trial
pending this appeal.
II.
First at issue is our jurisdiction vel non to consider
the Government’s appeal. If jurisdiction exists, we review
the Government’s contesting the court’s precluding ICE
from detaining Baltazar during the pendency of her criminal proceedings; and, along that line, Baltazar’s separation-of-powers and right-to-fair-trial contentions.

4a
A.
As discussed above, in October, subsequent to ICE’s
resuming detention of Baltazar, the district court ordered
her release from that detention pursuant to the September release order, promising a “more thorough written
[o]rder” would follow. The Government timely moved to
reconsider that October enforcement order, extending
the Government’s time in which to appeal until after the
motion was denied. See United States v. Brewer, 60 F.3d
1142, 1143 (5th Cir. 1995) (holding motion for reconsideration tolls time to appeal under Federal Rule of Appellate
Procedure 4); United States v. Rainey, 757 F.3d 234, 239
(5th Cir. 2014) (“[Under 18 U.S.C. § 3731,] the Government continues to be bound by the thirty-day requirement, but the judgment becomes final, and the clock begins to run, only after the disposition of a timely filed motion to reconsider”.). After the court, in its December order, denied the motion to reconsider, the Government
timely appealed.
In maintaining we have jurisdiction over its appeal of
the court’s December order, the Government relies on the
BRA:
An appeal by the United States shall lie to a court of
appeals from a decision or order, entered by a district
court of the United States, granting the release of a
person charged with or convicted of an offense, or
denying a motion for revocation of, or modification of
the conditions of, a decision or order granting release.
18 U.S.C. § 3731 (paragraph three).
1.
Interestingly, our jurisdiction is challenged not by
Baltazar, but by an amicus curiae. The amicus maintains,
inter alia: for purposes of appellate jurisdiction, the Government should have challenged the magistrate judge’s

5a
September release order, as opposed to appealing the district court’s enforcement of that order (the December order). Although appellate jurisdiction vel non is not mentioned in the parties’ opening briefs (the Government’s reply brief responds to the jurisdictional issue presented by
the amicus), we must, of course, consider the question sua
sponte. See Christopher M. by Laveta McA. v. Corpus
Christi Indep. Sch. Dist., 933 F.2d 1285, 1292 (5th Cir.
1991) (“[A]micus curiae . . . cannot raise an issue raised by
neither of the parties absent exceptional circumstances”.);
Giannakos v. M/V Bravo Trader, 762 F.2d 1295, 1297 (5th
Cir. 1985) (“Courts of Appeals have the responsibility to
consider the question of subject matter jurisdiction sua
sponte if it is not raised by the parties and to dismiss any
action if such jurisdiction is lacking.”).
2.
Under the BRA, we have jurisdiction over “[a]n appeal from a release or detention order, or from a decision
denying revocation or amendment of such an order”. 18
U.S.C. § 3145(c). In that regard, and as referenced supra,
jurisdiction exists for the Government’s appeal from “a
decision or order, entered by a district court of the United
States, granting the release of a person charged with . . .
an offense”. 18 U.S.C. § 3731 (paragraph three). Importantly, the provisions of this statute should be “liberally construed to effectuate its purposes”, which undoubtedly include the expansion of appellate jurisdiction. Id.
(paragraph five); see United States v. Wilson, 420 U.S.
332, 337 (1975) (concluding the passage of the Criminal
Appeals Act of 1970 showed “Congress intended to remove all statutory barriers to Government appeals and to
allow appeals whenever the Constitution would permit”);
United States v. Jefferson, 623 F.3d 227, 230 (5th Cir.
2010) (“We have interpreted § 3731 as providing the government with as broad a right to appeal as the

6a
Constitution will permit.”) (internal quotation marks and
citation omitted).
The September release order released Baltazar from
criminal detention under the BRA. Considered by itself,
we would lack jurisdiction over the September release order because it was issued by a magistrate judge and not a
district court. 18 U.S.C. § 3145(a); see, e.g., United States
v. Harrison, 396 F.3d 1280, 1281 (2d Cir. 2005). The December order, however, was the district court’s affirmation of the September release order in response to defendant’s motion to clarify her release status. The December
order is therefore appealable under §§ 3145 and 3731. See
United States v. Soriano Nunez, 928 F.3d 240, 244 (3d
Cir. 2019) (“[Defendant] essentially challenges the [District] Court’s decision to deny her request to enforce its
BRA order. . . . To the extent [defendant] challenges the
enforcement of a BRA order, we have jurisdiction over
this appeal.”); United States v. Lett, 944 F.3d 467, 469 (2d
Cir. 2019) (reviewing district court’s enforcement of prior
release order).
B.
Accordingly, we consider the Government’s challenge
to the district court’s interpretation of the interplay of the
BRA and INA. Its rulings on questions of law are, of
course, reviewed de novo. See United States v. Orellana,
405 F.3d 360, 365 (5th Cir. 2005); see also United States v.
Vasquez-Benitez, 919 F.3d 546, 552 (D.C. Cir. 2019) (analyzing de novo all legal conclusions related to release orders under the BRA and ICE detentions under the INA).
1.
The Government contends, in passing, that the district court violated the INA in its enforcement of the September release order. As stated in 8 U.S.C. § 1226(e),
“[n]o court may set aside any action or decision by the

7a
Attorney General . . . regarding the detention or release
of any alien”. See also 8 U.S.C. § 1252(g) (in relation to
removal proceedings, “no court shall have jurisdiction to
hear any cause or claim by or on behalf of any alien arising
from the decision or action by the Attorney General to
commence proceedings”).
In its October and December orders for Baltazar’s release, the district court expressly prohibited ICE from retaking custody. According to the Government, the court
thereby set aside a decision regarding an alien’s detention.
The court correctly rejected the applicability of
§§ 1226(e) and 1252(g) in its December order, explaining
it was “not attempting to review or set aside any decision
or action to commence removal proceedings” but was instead “attempting to enforce the Magistrate Judge’s
[September release] Order”.
2.
More substantively, the Government maintains the
court erred in concluding there is an order of precedence
between the BRA and INA, by deciding that, once the
Government began criminal proceedings against
Baltazar, the BRA superseded the INA. The court relied
on two textual grounds.
First, the court concluded: the BRA mandates defendant’s release whereas the INA grants only discretionary authority to detain. See 18 U.S.C. § 3142(b) (“The judicial officer shall order the pretrial release of the person”
unless the person is a flight risk or danger to the community) (emphasis added); 8 U.S.C. § 1226(a) (“[A]n alien
may be arrested and detained pending a decision on
whether the alien is to be removed from the United
States”.) (emphasis added). Second, the court read the
BRA to prescribe the exclusive means for pretrial

8a
detention of alien-defendants. See 18 U.S.C. § 3142(d)
(stating: if an alien is a flight risk or danger to the community, then the judicial officer “shall order the detention
of such person, for a period of not more than ten days, . . .
and direct the attorney for the Government to notify . . .
the appropriate official of the Immigration and Naturalization Service”). Given § 3142(d) expressly references
pretrial detention for alien-defendants, the court concluded it follows that the usual provisions of the BRA apply to an alien-defendant if he or she is not a flight risk or
danger to the community. Therefore, because Baltazar
was not deemed a flight risk or danger to the community,
the court concluded the ordinary mandate of release applied.
Whether the BRA and INA conflict is of first impression in our circuit. We therefore consider the decisions by
the six other circuits which have addressed the issue. See
United States v. Barrera-Landa, 964 F.3d 912 (10th Cir.
2020); United States v. Pacheco-Poo, 952 F.3d 950 (8th
Cir. 2020); United States v. Lett, 944 F.3d 467 (2d Cir.
2019); United States v. Soriano Nunez, 928 F.3d 240 (3d
Cir. 2019); United States v. Vasquez-Benitez, 919 F.3d 546
(D.C. Cir. 2019); United States v. Veloz-Alonso, 910 F.3d
266 (6th Cir. 2018). All of these circuits hold the statutes
do not conflict: pretrial release under the BRA does not
preclude pre-removal detention under the INA. Of
course, our court is at liberty to create a circuit split, see
Matter of Benjamin, 932 F.3d 293, 298 (5th Cir. 2019)
(recognizing its holding conflicts with the “majority of our
sister circuits”); but, for the reasons that follow, we do not
do so in this instance. Instead, we agree with the well-reasoned holdings of our fellow circuits.
Fundamentally, the BRA and INA concern separate
grants of Executive authority and govern independent
criminal and civil proceedings. See, e.g., Soriano Nunez,
928 F.3d at 245 (“[W]hile the BRA aims to ensure a

9a
defendant’s presence at trial, the INA uses detention to
ensure an alien’s presence at removal proceedings”.);
Barrera-Landa, 964 F.3d at 918 (“[T]he BRA does not
give the district court authority to interrupt ICE’s independent statutory obligations to take custody of [an aliendefendant] once he is released.”); Vasquez-Benitez, 919
F.3d at 553 (“ICE’s authority to facilitate an illegal alien’s
removal from the country does not disappear merely because the U.S. Marshal cannot detain him under the BRA
pending his criminal trial.”). Nothing in the text of the
BRA or INA evinces any order of precedence between the
statutes.
In addition, their silence, opposite the district court’s
interpretation, shows the statutes’ working together, not
in conflict. See Pacheco-Poo, 952 F.3d at 953 (“Other provisions of the BRA do not preclude removal under the
INA.”); Vasquez-Benitez, 919 F.3d at 553 (“Congress has
never indicated that the BRA is intended to displace the
INA.”). Accordingly, the use of “shall” in the BRA and
“may” in the INA must be interpreted in the light of their
separate and independent statutory grants of authority.
Furthermore, the court’s reading of § 3142(d) as the
exclusive means for pretrial detention of alien-defendants
inappropriately imports an exclusivity clause into the text.
See Pacheco-Poo, 952 F.3d at 953 (holding § 3142(d) “does
not mandate that immigration officials detain then and
only then”). Section 3142(d) is a limitation on the district
court’s authority to release an alien-defendant pursuant
to the BRA, not on ICE’s authority pursuant to the INA.
See Soriano Nunez, 928 F.3d at 246 (“By providing these
other agencies an opportunity to take custody of such persons, [§ 3142(d)] effectively gives respect to pending cases
and allows those officials to act before bail is set in the
federal case. . . . The BRA’s temporary detention scheme
thus reflects Congress’ recognition that immigration authorities . . . have separate interests.”). Moreover,

10a
§ 3142(d) only applies to defendant-aliens who might flee
or pose a danger, a scenario found inapplicable to Baltzar
by the magistrate judge in the September release order.
Allowing detentions under the INA outside of § 3142(d) in
no way disregards this process; it leaves it entirely intact
and concerns a different class of defendants.
3.
Lastly, the Government contests the district court’s
conclusion that ICE violated INA regulations by detaining Baltazar. Under 8 C.F.R. § 215.2(a), an alien shall not
depart the United States “if [her] departure would be
prejudicial to the interests of the United States”. As a
party to a pending criminal case, an alien’s departure is
deemed prejudicial. 8 C.F.R. § 215.3(g). The departure is
not prejudicial, however, if the “appropriate prosecuting
authority” provides consent. Id. The court reasoned that,
because consent was not provided for Baltazar’s departure, removing her from the country would be prejudicial
to the United States. And, according to the court, “if ICE
cannot remove her, it cannot detain her for removal purposes”.
Sections 215.2 and 215.3, however, do not relate to removal. Instead, they “merely prohibit aliens who are parties to a criminal case from departing from the United
States voluntarily”. Lett, 944 F.3d at 472 (emphasis in
original). In other words, the regulations pertain to actions by an alien, not the Government. Reading “departure” in this manner follows from the text of § 215.2(a):
Any departure-control officer who knows or has reason to believe that the case of an alien in the United
States comes within the provisions of § 215.3 shall
temporarily prevent the departure of such alien from
the United States and shall serve him with a written
temporary order directing him not to depart, or

11a
attempt to depart, from the United States until notified of the revocation of the order.
8 C.F.R. § 215.2(a) (emphasis added). This interpretation
is further confirmed by other provisions in the INA. See,
e.g., 8 C.F.R. § 215.4(a) (allowing alien to contest prevention of his departure). Again, every circuit to consider the
issue agrees the regulations concern an alien’s own actions, not those of ICE. See Barrera-Landa, 964 F.3d at
923; Lett, 944 F.3d at 472–73; Pacheco-Poo, 952 F.3d at
953; cf. Lopez-Angel v. Barr, 952 F.3d 1045, 1050 (9th Cir.
2019) (Lee, J., concurring) (“The ordinary meaning of the
word ‘departure’ refers to a volitional act. It would be
quite strange to say, for example, ‘the suspect departed
the crime scene when police took him into custody.’”).
C.
In addition to her statutory interpretation (which
mirrors the district court’s above-discussed position),
Baltazar contends: the Executive Branch violated the separation of powers through ICE’s detention of her; and the
court’s enforcement of the September release order protected her constitutional right to a fair trial under the
Fifth and Sixth Amendments. As discussed infra, because
neither issue has merit, we need not decide whether either
was preserved in district court.
1.
Regarding separation of powers, Baltazar maintains:
ICE, inter alia, “arrogated to itself the authority to disregard the legal effect of an Article III court’s judgment”;
therefore, even if there were statutory authority for
ICE’s actions under the INA, such authority would not
nullify a court’s valid release order. The Government
counters, inter alia: the separation-of-powers issue was
not properly preserved for appeal because Baltazar did
not pursue this issue in district court.

12a
Again, because her contention lacks merit, we need
not decide whether Baltazar’s separation-of-powers issue
falls within an exception to unpreserved issues’ being either waived or subject only to plain-error review. In short,
we consider, and reject, the assertion that ICE’s pre-removal detention of Baltazar violates the separation of
powers. See Vasquez-Benitez, 919 F.3d at 552 (“ICE’s detention does not offend separation-of-powers principles
simply because a federal court, acting pursuant to the
BRA, has ordered that same alien released pending his
criminal trial.”); Veloz-Alonso, 910 F.3d at 268.
2.
Concerning the Fifth and Sixth Amendments, the
court in its December order observed that ICE’s detention facilities in Louisiana are more than 200 miles away
from Baltazar’s criminal proceedings in Jackson, Mississippi—requiring court-appointed defense attorneys to
travel a full day to see their clients. Similar to her separation-of-powers issue, the Government maintains Baltazar
waived her Fifth and Sixth Amendment fair-trial issue by
failing to raise it in district court.
Once again, we need not decide whether the issue is
waived or subject only to plain-error review; the issue is
meritless. In referencing the distance between Jackson,
Mississippi, and ICE’s detention facilities in Louisiana,
the court did not explain the import of its observation, or
even to what degree, if any, it was making a factual finding. Moreover, while the commute is undoubtedly burdensome, the court did not conclude that ICE’s detention of
Baltazar violated her constitutional right to a fair trial,
which would include assistance of counsel. There are,
therefore, no reviewable findings or conclusions on any
purported violations of the Fifth and Sixth Amendments.

13a
III.
For the foregoing reasons, the district court’s December 2019 order precluding ICE from detaining Baltazar
pending completion of her criminal proceedings is VACATED.

14a
APPENDIX B

No. 3:19-CR-173-CWR-FKB
UNITED STATES OF AMERICA,
Plaintiff,
v.
MELECIA BALTAZAR-SEBASTIAN,
Defendant,
MEMORANDUM OPINION AND ORDER

Before CARLTON W. REEVES, District Judge.
The United States has charged Melecia Baltazar-Sebastian with one count of misusing a Social Security number. It arrested her and promptly brought her before a
United States Magistrate Judge for a detention hearing.
After considering the parties’ evidence, their arguments,
and the applicable law, the Magistrate Judge ordered
Baltazar-Sebastian to be released until her trial. The Order required Baltazar-Sebastian to remain in the Southern District of Mississippi.

15a
No one appealed the Magistrate Judge’s Order. That
would normally be the end of the matter. Here, however,
an agency within the United States Department of Homeland Security—Immigration and Customs Enforcement
(ICE)—decided that the Order does not apply to it. ICE
took custody of Baltazar-Sebastian and transported her
to a detention facility in Louisiana for deportation proceedings.
Baltazar-Sebastian, through her attorney, filed a series of motions in this Court objecting to the government’s
circumvention of the Magistrate Judge’s Order. Two
hearings followed. All of the briefs and arguments concern the same question: does federal law permit ICE to
override the Magistrate Judge’s Order releasing
Baltazar-Sebastian on bond?
For the reasons discussed below, the answer is “no.”
In the absence of a statute indicating that Congress authorized ICE to circumvent the Magistrate Judge’s Order, and without appealing that Order, ICE was not permitted to move Baltazar-Sebastian to Louisiana. While
ICE may continue removal proceedings, the defendant is
required to remain in this Judicial District under bond
conditions where she and her attorney can prepare for
trial.
Accordingly, the Court affirms once more the pretrial
release of Baltazar-Sebastian subject to conditions determined by the Magistrate Judge. Once the criminal proceedings regarding this defendant are finished, this
Court’s role in the matter is complete, and the Executive
Branch will then be free to detain her for removal proceedings.
I. Factual Background
Melecia Baltazar-Sebastian was born in Guatemala in
1979. The facts behind her relocation to Mississippi are

16a
not known at this time, but it is clear that she made a home
in this state. She lived in Morton, Mississippi, raised a
family, and found a faith community at the Catholic
Church of Saint Martin of Porres.
Baltazar-Sebastian also goes by “Amparo Sanchez.”
In Spanish, “amparo” means “refuge” or “protection.”
United States v. Fowlie, 24 F.3d 1059, 1064 (9th Cir. 1994);
A. S. (Widow) v. Advance Am. Diving, No. 2007-LHC505, 2008 WL 10656987, at *4 n.2 (Dep’t of Labor Apr. 11,
2008).1 The record does not explain the origin of BaltazarSebastian’s use of this name. Future proceedings may resolve whether that was the name she gave to the chicken
processing plant that employed her, whether it is her nickname, or something else.
In 2017, the Division of Children Services of the U.S.
Department of Health and Human Services Office of Refugee Settlement released Baltazar-Sebastian’s then 17year-old daughter, also named Melecia, into her mother’s
care under the Homeland Security Act of 2002 and the
William Wilberforce Trafficking Victims Protection
Reauthorization Act of 2008. Beyond raising and educating her daughter, Baltazar-Sebastian was required to ensure that her daughter appeared at all immigration proceedings. There is no evidence of non-compliance in the
record. Baltazar-Sebastian bought a car in 2018, secured
a job, and had no criminal history to speak of until August
7, 2019.
One remedy in the Mexican legal system is the “writ of amparo,” In
re Extradition of Vargas, 978 F. Supp. 2d 734, 741 n.3 (S.D. Tex.
2013), which is “a federal proceeding which may be brought by any
person who believes that his constitutional rights are being violated
by a public official, even when the official is acting within the scope of
authority conferred by statute or regulation,” Robert S. Barker, Constitutionalism in the Americas: A Bi-centennial Perspective, 49 U.
PITT. L. REV. 891, 906 (1988).

1

17a
That day, more than 600 federal agents conducted immigration enforcement actions at six chicken processing
plants in central Mississippi. Baltazar-Sebastian was one
of 680 persons taken into custody.2 Two weeks later, a federal grand jury in the Southern District of Mississippi indicted her for one count of misusing a Social Security
number. There have been 118 other indictments filed in
this District as a result of the August 7 enforcement actions.3
On September 3, 2019, a detention hearing was held
before Magistrate Judge Linda R. Anderson. As in each
detention hearing in this District, the government was
represented by the United States Attorney’s Office.
Counsel for Baltazar-Sebastian provided evidence
through documents and the testimony of three witnesses
regarding her client’s residence, church fellowship, commitment to care for her daughter, and daughter’s school
records. Judge Anderson concluded that Baltazar-Sebastian was not a danger to the community or a flight risk.
Accordingly, Judge Anderson issued an Order releasing
Baltazar-Sebastian on bond subject to specific conditions,
including that she “remain in the Southern District of
Mississippi at all times during the pendency of these proceedings unless special permission is obtained from the

Vandana Rambaran, ICE raids on Mississippi food processing
plants result in 680 arrests, FOX NEWS (Aug. 7, 2019),
https://www.foxnews.com/us/ice-raids-on-mississippi-foodprocessing-plants-result-in-680-arrests.
3
United States Attorney’s Office: Southern District of Mississippi,
119 Il-legal Aliens Prosecuted For Stealing Identities of Americans,
Falsifying Immigration Documents, Fraudulently Claiming to be
U.S. Citizens, Other Crimes, UNITED STATES DEP’T OF JUSTICE
(Nov. 7, 2019), https://www.jus-tice.gov/usao-sdms/pr/119-illegal-aliens-prosecuted-stealing-identities-americans-falsifying-immigration.
2

18a
Court.” Docket No. 14 at 2. The government did not appeal Judge Anderson’s Order.
Baltazar-Sebastian was not released. ICE immediately took her into custody and transferred her to a holding center in Louisiana. For an extended period of time,
Baltazar-Sebastian’s whereabouts were unknown to her
daughter and her attorney. Baltazar-Sebastian was not
able to communicate with her attorney about her case.4 On
September 13, 2019, she appeared before an Immigration
Judge in Louisiana. The hearing was continued to give her
time to find an immigration attorney.
On September 25, 2019, in this criminal case, the
United States filed a Motion for Writ of Habeas Corpus
Ad Prosequendum to ensure that Baltazar-Sebastian
would be present at a hearing before this Court. The motion was granted by Magistrate Judge F. Keith Ball.
Counsel for Baltazar-Sebastian then filed two motions of
her own: (1) to set aside the Writ, and (2) to clarify her
client’s conditions of release. Counsel argued that because
Baltazar-Sebastian had been released on bond by the
Magistrate Judge, her continued detention by ICE was
unlawful.
A hearing was held on October 15, 2019. BaltazarSebastian asked the Court to enforce Judge Anderson’s
Order of Release. This Court granted Baltazar-Sebastian’s request and promised a detailed written order. The
United States’ motion for reconsideration followed
shortly thereafter. Another hearing was held on November 18, 2019, this time with representatives from the
United States Attorney’s Office, the Department of
It was not just that Baltazar-Sebastian could not visit with her counsel. Baltazar-Sebastian literally could not communicate with her
counsel because she speaks an indigenous language, Akateco. There
are very few Akateco interpreters, which magnifies the difficulty for
her to communicate with her attorney.

4

19a
Justice (Main Justice), and ICE.5 The Court’s full ruling
follows.
A.

Relevant Law

This case requires the Court to analyze the Bail Reform Act of 1984 (BRA), 18 U.S.C. § 3141 et seq., and the
Immigration and Nationality Act of 1965 (INA), 8 U.S.C.
§ 1101 et seq.
1.

The Bail Reform Act

“In our society liberty is the norm, and detention
prior to trial or without a trial is the carefully limited exception.” United States v. Salerno, 481 U.S. 739, 755
(1987). Congress understood this when it enacted the
BRA, which provides that a “judicial officer shall order
the pretrial release” of a person charged with a federal
crime, “unless the judicial officer determines that such release will not reasonably assure the appearance of the
person as required or will endanger the safety of any
other person or the community.”6 18 U.S.C. § 3142(b).
“The word ‘shall’ is mandatory in meaning.” United States
v. Graves, 908 F.3d 137, 141 (5th Cir. 2018), as revised
(Nov. 27, 2018) (citing Valdez v. Cockrell, 274 F.3d 941, 950
(5th Cir. 2001)). Pursuant to this language, “the presumption is release absent a demonstration that the defendant
is likely to flee or is a danger to the community.” United
States v. Espinoza-Ochoa, 371 F. Supp. 3d 1018, 1020
(M.D. Ala. 2019) (citation omitted).
The BRA expressly contemplates pretrial release for
aliens. See United States v. Adomako, 150 F. Supp. 2d
The Court did not consider Baltazar-Sebastian’s supplemental brief
as it was untimely and submitted without leave of Court.
6
“A determination that an individual is a flight risk must be supported
by a preponderance of the evidence.” United States v. Vasquez-Benitez, 919 F.3d 546, 551 (D.C. Cir. 2019) (citation omitted). On appeal,
the factual finding is reviewed for clear error. Id.
5

20a
1302, 1304 (M.D. Fla. 2001). Section 3142(d) of the Act
provides that if a judicial officer determines that an alien
“may flee or pose a danger to any other person or the community, then the judicial officer shall order the temporary
detention of such person in order for the attorney for the
government to notify the appropriate official of the Immigration and Naturalization Service.” United States v.
Trujillo-Alvarez, 900 F. Supp. 2d 1167, 1174 (D. Or. 2012)
(citing 18 U.S.C. § 3142(d)) (quotation marks and emphasis omitted). This temporary detention may not exceed 10
days. 18 U.S.C. § 3142(d). The statute continues, “[i]f the
official fails or declines to take such person into custody
during that period, such person shall be treated in accordance with the other provisions of this section, notwithstanding the applicability of other provisions of law governing release pending trial or deportation or exclusion
proceedings.” Id. “The ordinary meaning of notwithstanding is in spite of, or without prevention or obstruction
from or by.” N.L.R.B. v. SW General, Inc., 137 S. Ct. 929,
939 (2017) (quotation marks and citations omitted). The
use of “notwithstanding” in a statute “shows which provision prevails in the event of a clash.” Id. (citing ANTONIN
SCALIA & BRYAN A. GARNER, READING LAW: THE INTERPRETATION OF LEGAL TEXTS 126-27 (2012)).
No other section in the BRA addresses aliens, nor are
there special or additional conditions placed on such persons. Congress chose not to make any other distinction
between citizens and aliens. Outside of § 3142(d), Congress required that detainees be treated alike.
2.

The Immigration and Nationality Act

“An illegal alien is detained under the INA to facilitate his removal from the country.” United States v.
Vasquez-Benitez, 919 F.3d 546, 553 (D.C. Cir. 2019) (citing
8 U.S.C. § 1231(a)(2)).

21a
Section 1226(a) of the INA states that “an alien may
be arrested and detained pending a decision on whether
the alien is to be removed from the United States.” 8
U.S.C. § 1226(a). Though § 1226(a) generally makes an alien’s detention permissive, § 1226(c) provides specific instances when continued physical custody of an alien is
mandated. Id. § 1226(a), (c). For example, if an alien has
been convicted of committing an aggravated felony within
the United States, then § 1226(c) requires detention. Id.
§ 1226(c)(1)(B).
In the INA, Congress instructed the Executive
Branch to remove an alien from the United States within
90 days from when the alien is subject to a removal order.
Id. § 1231(a)(1)(A). This 90-day period is known as the “removal period.” The removal period begins to run on the
latest of the following:
(i)

The date the order of removal becomes administratively final.

(ii)

If the removal order is judicially reviewed and
if a court orders a stay of the removal of the
alien, the date of the court’s final order.

(iii)

If the alien is detained or confined (except under an immigration process), the date the alien
is released from detention or confinement.

Id. § 1231(a)(1)(B) (emphasis added).
A defendant released on conditions of pretrial supervision is deemed “confined” because she is subject to restraints not shared by the general public. See Hensley v.
Mun. Ct., 411 U.S. 345, 351 (1973). It follows that because
an alien released on pretrial bond is still technically “confined,” the 90-day removal period for such a defendant has
yet to begin. While an Article III criminal proceeding is
ongoing, therefore, ICE is under no time constraint to deport the alien-defendant.

22a
The INA also authorizes the Executive Branch to establish regulations to enforce the statute and “all other
laws relating to the immigration and naturalization of aliens . . . .” 8 U.S.C. § 1103(a)(1), (3). Under this authority,
the Executive Branch has issued several regulations, including one commonly known as the “ICE detainer.” The
“detainer serves to advise another law enforcement
agency that the Department seeks custody of an alien
presently in the custody of that agency, for the purpose of
arresting and removing the alien.” 8 C.F.R. § 287.7(a).
The purpose of an ICE detainer, then, is to secure and remove an alien.
ICE does not, however, have authority to sidestep the
BRA and detain a defendant “for the sole purpose of ensuring [the alien’s] presence for criminal prosecution.”
United States v. Soriano Nunez, 928 F.3d 240, 245 (3d
Cir. 2019); see also Vazquez-Benitez, 919 F.3d at 552.
Two further INA regulations are pertinent to our
case. First, 8 C.F.R. § 215.2(a) provides that “[n]o alien
shall depart, or attempt to depart, from the United States
if his departure would be prejudicial to the interests of the
United States under the provisions of § 215.3.” Section
215.3, in turn, provides that departure from the United
States of “any alien who is needed in the United States . . .
as a party to[] any criminal case under investigation or
pending in a court in the United States” is deemed prejudicial. 8 C.F.R. § 215.3(g). This regulation then clarifies
that an alien who is party to a pending criminal case “may
be permitted to depart from the United States with the
consent of the appropriate prosecuting authority, unless
such alien is otherwise prohibited from departing under
the provisions of this part.” Id.; see also Trujillo-Alvarez,
900 F. Supp. 2d at 1178-79.
Reading these regulations together indicates that by
pursuing a criminal case against an alien, the Executive

23a
Branch itself has determined that an ongoing criminal
proceeding takes priority over removal. Once a criminal
proceeding is complete, removal is no longer prejudicial
to the United States’ interests and the Department of
Homeland Security is free to deport the individual subject
to a final removal order.
3.

Court Orders

“When the district court enters an order in a case, we
expect the affected persons to abide by the order,” United
States Attorney Robert K. Hur said a few weeks ago.7
“[A]n order issued by a court with jurisdiction over
the subject matter and person must be obeyed by the parties until it is reversed by orderly and proper proceedings.” Matter of Jones, 966 F.2d 169, 173 (5th Cir. 1992)
(citing Maness v. Meyers, 419 U.S. 449, 459 (1975)). “Trial
judges and opposing litigants have a right to expect that
the court’s orders will be carefully followed in order that
the business of the court may be handled expeditiously
and fairly.” Woods v. Burlington N.R. Co., 768 F.2d 1287,
1290 (11th Cir. 1985), rev’d on other grounds, 480 U.S. 1
(1987). When a party believes an order is incorrect, its
remedy is to appeal, “but, absent a stay, [it] must comply
promptly with the order pending appeal.” Matter of
Jones, 966 F.2d at 173 (citation omitted).
District courts have inherent power to enforce “their
lawful mandates.” Chambers v. NASCO, Inc., 501 U.S. 32,
43 (1991) (citations omitted). These powers are “governed
not by rule or statute but by the control necessarily vested
United States Attorney’s Office: District of Maryland, Wife of Ponzi
Scheme Perpetrator Pleads Guilty to Federal Charge for Conspiring
to Remove and Conceal Assets in Violation of Court Orders, UNITED
STATES DEP’T OF JUSTICE (Oct. 9, 2019), https://www.justice.gov/usao-md/pr/wife-ponzi-scheme-perpetrator-pleads-guiltyfederal-charge-conspiring-remove-and-conceal.
7

24a
in courts to manage their own affairs so as to achieve the
orderly and expeditious disposition of cases.” Id. (citation
omitted). A noncompliant party risks fines, sanctions, or
even incarceration until compliance is achieved. See, e.g.,
Nelson v. United States, 201 U.S. 92, 96–97 (1906). Willful
disobedience of a court order can justify dismissal with
prejudice. See, e.g., In re Deepwater Horizon, 922 F.3d
660, 666 (5th Cir. 2019).
II. Discussion
A.

Textual Analysis
1.

Interpreting the BRA, the INA, and the
INA Regulations

The parties have devoted considerable attention to
whether the BRA and the INA conflict in this case. “Because this is a question of statutory interpretation, we
begin with the text of the statute[s].” United States v. Nature’s Way Marine, L.L.C., 904 F.3d 416, 420 (5th Cir.
2018) (citation omitted).
“The preeminent canon of statutory interpretation
requires us to presume that the legislature says in a statute what it means and means in a statute what it says
there.” Christiana Tr. v. Riddle, 911 F.3d 799, 806 (5th
Cir. 2018) (citation omitted); see generally ANTONIN
SCALIA & BRYAN A. GARNER, READING LAW: THE INTERPRETATION OF LEGAL TEXTS (2012) [hereinafter SCALIA
& GARNER]. “[W]e assume that the legislative purpose is
expressed by the ordinary meaning of the words used.”
Custom Rail Emp’r Welfare Tr. Fund v. Geeslin, 491
F.3d 233, 236 (5th Cir. 2007) (citation omitted). Another
well-established canon of statutory interpretation instructs that “when two statutes are capable of co-existence, it is the duty of the courts, absent a clearly expressed congressional intention to the contrary, to regard
each as effective.” Morton v. Mancari, 417 U.S. 535, 551

25a
(1974). “[T]he words of a statute must be read in their context and with a view to their place in the overall statutory
scheme.” Roberts v. Sea-Land Servs., Inc., 566 U.S. 93,
101 (2012) (citation omitted).
“In determining whether Congress has specifically
addressed the question at issue, a reviewing court should
not confine itself to examining a particular statutory provision in isolation.” Food & Drug Admin. v. Brown & Williamson Tobacco Corp., 529 U.S. 120, 132 (2000). “[T]he
meaning of one statute may be affected by other Acts, particularly where Congress has spoken subsequently and
more specifically to the topic at hand.” Id. at 133 (citations
omitted). “[W]e presume that Congress is aware of existing law when it passes legislation.” Mississippi ex rel.
Hood v. AU Optronics Corp., 571 U.S. 161, 169 (2014)
(quotation marks and citation omitted).
Congress created a comprehensive statutory scheme
with the BRA. It knew that aliens were bound to be arrested and charged with federal crimes. So Congress set
out a specific avenue for judicial officers to follow when
faced with an alien-defendant’s motion for pretrial release.
If an alien-defendant is a flight risk or danger to the
community, § 3142(d) of the BRA requires the court to notify all agencies – federal, state, and local – who may have
an interest in the alien-defendant. The court must then
hold the alien-defendant for 10 days. If no agency picks up
the alien-defendant within that time, then “such person
shall be treated in accordance with the other provisions of
this section . . . .” 18 U.S.C. § 3142(d).
Section 3142(d) is the only part of the BRA that distinguishes aliens from citizens. This drafting decision is
entitled to deference, under the principle that “[w]here
Congress includes particular language in one section of a
statute but omits it in another section of the same Act, it

26a
is generally presumed that Congress acts intentionally
and purposely in the disparate inclusion or exclusion.”
Russello v. United States, 464 U.S. 16, 23 (1983) (citations
omitted); see also AU Optronics Corp., 571 U.S. at 169
(citing Dean v. United States, 556 U.S. 568, 573 (2009)).
Given that Congress singled out aliens in only one
portion of the entire statutory scheme of the BRA, it logically follows that, in the rest of the BRA, Congress intended aliens and citizens to be treated alike. Thus, if an
alien-defendant is not a flight risk or a danger, then the
usual provisions of the BRA apply.
Baltazar-Sebastian’s case is one in which the BRA
and the INA are capable of peaceful coexistence. She is a
pre-trial defendant—meaning she is subject to § 3142 of
the BRA. In § 3142(b), Congress requires a judicial officer
to release a defendant on bond unless the judicial officer
“determines that such release will not reasonably assure
the appearance of the person as required or will endanger
the safety of any other person or the community.” 18
U.S.C. § 3142(b). Judge Anderson applied the BRA to the
evidence before her and concluded that Baltazar-Sebastian was neither a flight risk nor a danger to the community. Based on these findings, Judge Anderson followed
Congress’ instructions and ordered Baltazar-Sebastian’s
release on bond subject to conditions.
ICE nevertheless immediately took custody of
Baltazar- Sebastian and transported her to Louisiana. Rather than appeal the Magistrate Judge’s Order, ICE violated the conditions Judge Anderson set forth: 1) that
Baltazar-Sebastian be released to her home, and 2) that
she remain within the Southern District of Mississippi.
ICE and DOJ argue that a Magistrate Judge’s order
is irrelevant when it comes to ICE’s power to detain an
alien-defendant. They contend that the classification of
immigration as a civil issue coupled with the issuance of

27a
an ICE detainer requires courts to make an exception to
the detention plan Congress set forth in the BRA. In
short, they argue that anyone with an ICE detainer may
be detained notwithstanding a Magistrate Judge’s Order
of Release. Respectfully, this Court disagrees.
First, the plain language of the statutes suggests an
order of precedence. On one hand, the INA states that the
Secretary of Homeland Security may detain an alien like
Baltazar-Sebastian during removal proceedings, but it
does not mandate such detention. 8 U.S.C. § 1226(a). On
the other hand, the BRA does mandate that alien-defendants like Baltazar-Sebastian be released on bond while
awaiting trial. 18 U.S.C. § 3142(b).
Next, in § 3142(d), Congress contemplated the situation in which multiple agencies would have an interest in
the same alien-defendant, and it laid out a specific framework to be followed in such circumstances. To read an
“ICE detainer” exception into the statute would disregard this process. It would also render a court order
meaningless. If Congress had intended that, surely it
would have said so.
Finally, the straightforward text of the relevant INA
regulations reveals the logical fallacy at the heart of ICE’s
action in this case. ICE has the authority to detain an alien
solely for the purpose of removing and deporting the alien. See Vasquez-Benitez, 919 F.3d at 552. Under 8 C.F.R.
§§ 215.2(a) and 215.3(g), however, removing an alien-defendant is prejudicial to the United States without the
prosecutor’s permission.8 No such permission has been
granted in this case. It follows that removing BaltazarSebastian from the country would be prejudicial to the
There is no evidence that ICE has obtained “the consent of the appropriate prosecuting authority” necessary to remove Baltazar-Sebastian from the United States. 8 C.F.R. § 215.3(g).

8

28a
United States. And if ICE cannot remove her, it cannot
detain her for removal purposes.9
2.

ICE’s Interpretation of its Regulations

During the hearing on its Motion for Reconsideration, the government argued that courts have misinterpreted 8 C.F.R. §§ 215.2(a) and 215.3(g). It asserts that
the term “departure” in § 215.2(a) refers solely to an alien’s voluntary departure. In other words, ICE contends
that it can remove an alien-defendant even if—under its
own regulations—departure of the alien would be prejudicial to the United States.
This Court has difficulty understanding how the government reads “voluntary” into the section. The word is
not there. As Justice Scalia and Professor Garner remind
us, a court cannot “enlarge or improve or change the law
. . . . The absent provision cannot be supplied by the
courts.” SCALIA & GARNER at 93-94 (quotation marks and
citations omitted). If ICE wishes to add the word voluntary, it must go through the process necessary to amend
a federal regulation.
Other regulations within the same section and chapter of the Code of Federal Regulations specifically use the
term voluntary as it relates to departure. See 8 C.F.R. §
215.3(j); see also 8 C.F.R. §§ 236.15 and 240.25. The term’s
inclusion in some sections and exclusion in others indicates that the exclusion of “voluntary” in § 215.2(a) was
intentional. See Russello, 464 U.S. at 23.
The government likely believes that its reading of the
regulations is reasonable and entitled to deference. See
Auer v. Robbins, 519 U.S. 452, 457 (1997). Auer deference
This is not to say that any detention of an alien-defendant during
criminal proceedings is prohibited. Again, the BRA permits continued detention of an alien-defendant if a judicial officer finds that the
defendant is a flight risk or poses a danger to the community.

9

29a
to an agency’s reading of an ambiguous regulation continues to play an important role in construing agency regulations. When Auer deference is applicable, it “gives an
agency significant leeway to say what its own rules mean.”
Kisor v. Wilkie, 139 S. Ct. 2400, 2418 (2019). By doing so,
“the doctrine enables the agency to fill out the regulatory
scheme Congress has placed under its supervision.” Id.
However, Auer deference is warranted “only if a regulation is genuinely ambiguous.” Id. at 2414. A court must
have exhausted “all the traditional tools of construction”
and concluded that the “question still has no single right
answer . . . .” Id. at 2415 (quotation marks and citations
omitted).
Here, the regulations at issue are not ambiguous, and
the government has not argued that such ambiguity exists. Application of basic statutory tools renders the plain
meaning of the regulations clear. Therefore, Auer deference to ICE’s interpretation is inappropriate in this situation.
3.

Jurisdiction

The government also implies that this Court lacks jurisdiction because it does not have the power to review immigration decisions of the Secretary of Homeland Security. Specifically, the government notes that in relation to
removal proceedings, “[n]o court may set aside any action
. . . or the grant, revocation, or denial of bond or parole.”
8 U.S.C. § 1226(e). Furthermore, “no court shall have jurisdiction to hear any cause or claim by or on behalf of any
alien arising from the decision or action by the [Secretary]
to commence proceedings . . . .” Id. § 1252(g).
This jurisdictional argument is puzzling. The INA
makes clear that district courts cannot set aside immigration decisions or entertain causes of action stemming from
Homeland Security’s decision to proceed with removal.
However, this Court is not attempting to review or set

30a
aside any decision or action to commence removal proceedings. The Court is simply attempting to enforce the
Magistrate Judge’s Order – an action well within this
Court’s jurisdiction. When it comes to a district court enforcing its own (or adopted) orders, §§ 1226(e) and 1252(g)
of the INA are simply irrelevant.
B.

The Government’s Extra-Textual Arguments

The government argues that the Court’s reading of
the BRA, the INA, and the INA regulations is wrong. As
mentioned above, in earlier cases it has argued for an
“ICE detainer” exception to the BRA – specifically asserting that any defendant with an ICE detainer must be
held during the pendency of a federal criminal case no
matter how a Magistrate Judge has ruled.
A number of District Courts have been unconvinced.
See United States v. Boutin, 269 F. Supp. 3d 24, 26
(E.D.N.Y. 2017) (“When an Article III court has ordered
a defendant released, the retention of a defendant in ICE
custody contravenes a determination made pursuant to
the Bail Reform Act.”); Trujillo-Alvarez, 900 F. Supp. 2d
at 1177; United States v. Barrera-Omana, 638 F. Supp. 2d
1108, 1111 (D. Minn. 2009) (“In fine, the government argues that any defendant encumbered by an ICE detainer
must be detained pending trial or sentence. This cannot
be.”); see also United States v. Ventura, No. 17-CR-418
(DLI), 2017 WL 5129012, at *3 (E.D.N.Y. Nov. 3, 2017)
(“[O]nce prosecution is the Government’s chosen course
of action, the Executive may not attempt to obviate the
bond determination of this Court by enforcing the ICE
detainer.”); United States v. Brown, No. 4-15-CR-102,
2017 WL 3310689, at *5 (D.N.D. July 31, 2017) (“the Government’s ICE-detainer argument is at odds with the
plain text of the Bail Reform Act”); United States v. Blas,
No. CRIM. 13-0178-WS-C, 2013 WL 5317228, at *6 (S.D.
Ala. Sept. 30, 2013); United States v. Montoya-Vasquez,

31a
No. 4:08-CR-3174, 2009 WL 103596, at *5 (D. Neb. Jan.
13, 2009) (“Such a harsh result is nowhere expressed or
even implied in the Bail Reform Act.”). These courts have
generally refused to let Congress’ specific detention plan
in the BRA “simply be overruled by an ICE detainer. No
other factor [would] matter[]; neither danger to the community nor risk of flight, nor any kind of individualized
consideration of a person before the Court. Each, according to the government, [would be] swallowed by an ICE
detainer.” Barrera-Omana, 638 F. Supp. 2d at 1111.
The government nonetheless has been successful in
the Courts of Appeals. In recent published opinions, the
Third Circuit, Sixth Circuit, and D.C. Circuit held that
ICE may override a Magistrate Judge’s Order of Release.10
The Fifth Circuit may agree with its colleagues; it is
“always chary to create a circuit split.” Gahagan v. United
States Citizenship & Immigration Servs., 911 F.3d 298,
304 (5th Cir. 2018) (quotation marks and citation omitted).
At the same time, the Fifth Circuit has been more than
willing to break with “the majority of [its] sister circuits”
when it concludes that those circuits have misread the text
and plain meaning of federal statutes. Matter of Benjamin, 932 F.3d 293, 298 (5th Cir. 2019) (citing SCALIA &
GARNER). Until the appellate court speaks, all this
Court can do is summarize the other circuits’ decisions
and explain why it finds them unpersuasive.
We begin with the government’s best case.
1.

Third Circuit

The facts of United States v. Soriano Nunez, 928
F.3d 240 (3d Cir. 2019), are almost identical to our case.
Late last week, the Second Circuit released an opinion agreeing
with its sister circuits. See United States v. Lett, No. 18-749-CR, 2019
WL 6752763 (2d Cir. Dec. 12, 2019).

10

32a
There, an alien was charged with using a false Social Security number, was ordered released by the Magistrate
Judge and the District Judge, was taken into custody by
ICE for removal proceedings, and challenged her detention in a second round of motion practice before the District Court. Id. at 243. The District Court denied her motion. It reasoned that “the INA, 8 U.S.C. § 1226(a)(1), allowed ICE to detain Soriano Nunez during the pendency
of removal proceedings notwithstanding the parallel criminal action . . . .” Id.
The text of 8 U.S.C. § 1226 is not so definitive. As
mentioned earlier, it begins by providing that upon a warrant issued by the Secretary of Homeland Security, “an
alien may be arrested and detained pending a decision on
whether the alien is to be removed from the United
States.” 8 U.S.C. § 1226(a). The Secretary “may continue
to detain the arrested alien,” or instead may release the
alien on bond or conditional parole. Id. § 1226(a)(1)-(2). If,
however, the alien is a convicted criminal or has been removed previously, this discretion evaporates: the Secretary “shall” detain the alien immediately. Id. § 1226(c)(1).
Nothing in § 1226(a)(1) states that it supersedes the
BRA. Nothing in the statute gives ICE permission to circumvent a Magistrate Judge’s detention order. As it applied to Soriano Nunez’s situation, the statute did not require ICE to detain Soriano Nunez.
The Third Circuit nevertheless permitted ICE’s action. It gave four reasons.
First, it held that “nothing in the BRA gives a district
court the authority to compel another sovereign or judge
in federal administrative proceedings to release or detain
a defendant.” 928 F.3d at 246. But that is not the issue
here. There is no other sovereign in these cases; both the
U.S. Attorney’s Office and ICE represent the Executive
Branch and ultimately report to the President of the

33a
United States. Defendants like Baltazar-Sebastian are
also not asking a Magistrate Judge to override an Immigration Judge. Their sole request is that the Magistrate
Judge’s pretrial release order control during the pendency of the criminal case. The Immigration Judge can
consider detention at the conclusion of the criminal matter.
Second, the Third Circuit held that the 10-day notice
provision in 18 U.S.C. § 3142(d) revealed “Congress’
recognition that immigration authorities and state sovereigns have separate interests.” Id. As a general principle,
the point is not controversial. But it is not a very compelling textual argument in these cases since, as the attorney
from Main Justice conceded at our hearing on reconsideration, § 3142(d) “does not apply in this case.” Transcript
of Hearing at 70: 11-12 (Nov. 18, 2019).
She is correct. Section 3142(d) applies only to persons
who may flee or pose a danger. The Magistrate Judges
who considered Soriano Nunez and Baltazar-Sebastian’s
motions for pretrial release never reached this part of the
statute because the defendants were not dangerous or
flight risks. And it is strange to look at the BRA, a statute
which expressly subjects non-dangerous aliens to the
same bond eligibility as citizens, thereby authorizing their
pretrial release, and conclude from it that all aliens may
be detained.
Third, the appellate court made a factual finding that
“detention for removal purposes does not infringe on an
Article III court’s role in criminal proceedings.” 928 F.3d
at 246. Perhaps that is true in the Third Circuit. It is not
true here.
One set of problems arises from the defense team’s
impaired ability to prepare for trial. ICE has been detaining Mississippi’s alien-defendants at facilities in Jena and
Basile, Louisiana, which are 163 and 262 miles away from

34a
Jackson, Mississippi, respectively.11 Court-appointed defense attorneys require a full day to travel there and
back—all the while charging the federal government—
and Baltazar-Sebastian’s counsel suggested at the hearing that her client’s detention center has no rooms for attorney-client discussion.12
Another set of problems arises from the fact that ICE
has broken its promise to work with Court staff on facilitating criminal hearings. Incredibly, the Court learned at
the hearing that it is not uncommon for ICE to deport defendants while their criminal cases are pending. Tr. at 59:
16-19.
In United States v. Agustin-Gabriel, for example, the
court issued a Writ of Habeas Corpus Ad Testificandum
directing ICE to bring the defendant to Jackson for his
change of plea hearing, only to discover at the hearing
that the defendant had been deported weeks earlier. See
No. 3:19-CR-198-TSL-FKB, Docket Nos. 31-35 (S.D.
Miss. 2019).13 The government has now told the District
Judge presiding over that matter that “[t]he Defendant
may properly reenter the United States to resolve this
pending criminal matter, by applying to the nearest Consular Services office in a United States Embassy or Consulate, and requesting a parole to reenter the United
States for law enforcement purposes.” Docket No. 35 at

At the last hearing, an ICE supervisor testified that there are no
Immigration Judges in the entire State of Mississippi.
12
The testimony on this point was inconclusive.
13
In Agustin-Gabriel, the Magistrate Judge released the defendant
on bond after a detention hearing, after which ICE took the defendant into custody. The defense attorney and prosecutor are now arguing over whether the criminal case should be dismissed, or instead
whether the defendant should be added to the Fugitive Docket.
11

35a
2.14 But that argument is difficult to reconcile with the
government’s assurance in this matter that “if ICE were
to remove [Baltazar-Sebastian] during the pendency of
this case, the government would, of course, concede it
could not continue its prosecution of her.” Tr. at 66: 7-9.
Suffice it to say that criminal proceedings in the Southern
District of Mississippi have been stymied by ICE.
The Third Circuit concluded with its claim that the
judiciary is trying to force “the Executive to choose which
laws to enforce.” 928 F.3d at 247 (citation omitted). It’s
just not true. The United States Attorney has brought
these cases to the grand jury and into court. We are hearing each and every one of them. Our Magistrate Judges,
probation officers, courtroom deputies, court reporters,
and public defenders—Article III employees all—have
bent over backwards to accommodate the influx of indictments and detention hearings necessitated by these enforcement actions.15 We are doing so to respect the Executive’s enforcement decisions, not to challenge them.

The government’s filing then claims that “[t]he Court retains discretion and authority to manage its docket, and to govern any case
before it so as to preserve the Court’s jurisdiction.” Docket No. 35 at
3 (citing Justice Cardozo). If the government had honored that principle in the first place, it would have obeyed the Magistrate Judge’s
detention order.
15
Working with the Administrative Office of the Courts, our court
made sure that defendants and their counsel had interpreters so that
the accused would not be deprived of their Sixth Amendment protections. The defend-ants spoke various languages and indigenous dialects. Coordinating this was no easy task as the court ensured that
counsel could meet with their clients in advance of each defendant’s
hearing. The coordination was made more difficult because the defendants were not being held in any local facilities. In addition, the
judges and court personnel interrupted all other scheduled matters
to conduct these detention hearings because the BRA required that
these hearings be held.
14

36a
The Executive Branch may have its cake and eat it
too. It may pursue criminal charges to their conclusion
and deport these defendants. What the text of the statutes and regulations indicate is how to sequence these actions to provide for both criminal and civil proceedings.
Once the right hand of the Executive Branch (DOJ) has
come into court and submitted a case to the Magistrate
Judge, its left hand (ICE) should not be permitted to circumvent the Magistrate Judge’s Order during the pendency of the criminal case.
***
For these reasons, this Court respectfully believes
that the Third Circuit erred. Its failure to mention 8
C.F.R. § 215 is particularly odd. Section 215 serves as a
central part of the textual analysis conducted by the sizeable number of district courts that ruled similarly to how
this Court rules today. The federal regulation declares removal prejudicial to the government’s active criminal
case, so to omit any consideration of § 215 results in an
incomplete analysis.
Rather than address DHS’ own regulations, the
Third Circuit departs from textualism to focus on general
principles like dual sovereignty—despite dual sovereignty not being implicated by this case. And it then
misses the equally-significant principle at stake: that the
Executive Branch cannot disregard a Magistrate Judge’s
lawful order.
2.

Sixth Circuit

The Sixth Circuit case the government relies upon is
even less compelling.
In United States v. Veloz-Alonso, 910 F.3d 266 (6th
Cir. 2018), the defendant was charged with illegal reentry
into the United States. The case was cut-and-dry—the defendant had been removed from the country three times

37a
previously—so he promptly pleaded guilty. Id. at 267. He
then moved for release on bond pending sentencing. Id.
The District Court consulted the part of the BRA applicable to convicted defendants, 18 U.S.C. § 3143. That
statute provides that a “judicial officer shall order that a
person who has been found guilty of an offense in a case .
. . and is awaiting imposition or execution of sentence be
detained unless—”
(A) (i) the judicial officer finds there is a substantial
likelihood that a motion for acquittal or new
trial will be granted; or
(ii) an attorney for the Government has recommended that no sentence of imprisonment be
imposed on the person; and
(B) the judicial officer finds by clear and convincing
evidence that the person is not likely to flee or
pose a danger to any other person or the community.
18 U.S.C. § 3143(a)(2) (emphasis added). The District
Judge concluded, as a factual matter, that the defendant
met the criteria necessary to overcome the presumption
of detention and therefore was required to be released.
The Sixth Circuit reversed. It found that § 3143 is a
“permissive” law because it allows, but does not mandate,
a judicial officer to release a defendant on bond. VelozAlonso, 910 F.3d at 269. In contrast, the appellate court
observed, the INA section governing “illegal aliens with
final deportation orders, such as Veloz-Alonso, [has] no
ambiguity: ICE is authorized and mandated under the
INA to detain and deport.” Id. (citing 8 U.S.C. § 1231(a)).
Thus, even if a judicial officer decides under the BRA to
release a convicted alien-defendant before sentencing, the
Sixth Circuit implicitly held that the INA’s mandate overrides § 3143 of the BRA. Id. at 270.

38a
The Sixth Circuit’s decision has little application to
our case. Veloz-Alonso was already subject to a final removal order and its attendant consequences. See 8 U.S.C.
§ 1231(a). Veloz-Alonso was also subject to the more stringent portion of the BRA governing persons awaiting sentencing. See 18 U.S.C. § 3143. Baltazar-Sebastian is not
subject to either of those sections. She has never been removed and has not pleaded guilty to the criminal charge.
The BRA and INA simply apply differently to her.
Even if the facts were closer, this Court is not sure
that the Sixth Circuit’s permissive-versus-mandatory
framework is correct. The BRA may look “permissive” to
an appellate court forced to consider all sorts of hypothetical fact patterns. To a Magistrate Judge presiding over a
detention hearing, however, the BRA’s mandatory nature
becomes apparent. If a person like Baltazar-Sebastian
presents evidence that she is not dangerous and will appear for future proceedings, the Magistrate Judge “shall
order” her pretrial release. 18 U.S.C. § 3142(b) (emphasis
added). From a Magistrate Judge’s courtroom, the BRA
is neither permissive nor mandatory: it is conditional.
Pretrial detention turns on the evidence presented.
When seen in this light, the Sixth Circuit case was actually more complicated than the court acknowledged.
Based on the clear and convincing evidence presented at
the detention hearing, § 3143(a) of the BRA required the
District Judge to release the defendant before sentencing.
And based on the defendant’s prior removal order, §
1231(a)(5) of the INA required ICE to remove the defendant. Courts have a duty to try and reconcile statutes, but
it is not clear how this particular dilemma should have
been reconciled. Fortunately, that is not our situation and
can be avoided today.
The Court will now turn to the government’s final
supporting case.

39a
3.

D.C. Circuit

In United States v. Vasquez-Benitez, the government
charged the defendant with illegal reentry. 919 F.3d 546,
548 (D.C. Cir. 2019). A Magistrate Judge and a District
Judge determined that the defendant did not need to be
detained before trial, and released him on conditions. Id.
at 549. ICE then took him into custody. Id. The defendant
moved to compel his release from ICE custody. Id. at 550.
The case was reassigned to a different District Judge, who
held two more hearings and concluded that the defendant
should be released from ICE custody. Id.
The D.C. Circuit reversed. It did not “see a statutory
conflict,” and found that “the Department of Homeland
Security’s detention of a criminal defendant alien for the
purpose of removal does not infringe on the judiciary’s
role in criminal proceedings.” Id. at 552. The court endorsed the Sixth Circuit’s permissive-versus-mandatory
construction, choosing to interpret the BRA as permissive
rather than conditional.16 Id. at 553.
As before, this Court believes that the D.C. Circuit’s
interpretation did not fully consider the text of the BRA
and 8 C.F.R. § 215.3(g). But any conflict is again avoidable
because of our differing facts. In the D.C. Circuit case, the
defendant was already subject to a final removal order, so
the INA mandated detention. Id. at 549; see 8 U.S.C. §
1231(a)(5). Baltazar-Sebastian is not subject to a final removal order. The INA does not mandate her detention,
and the BRA does mandate her pretrial release. Reading
Somewhat confusingly, the D.C. Circuit hedged at the end of its
opinion, writing, “our holding is limited—we conclude only that the
district court erred in prohibiting the U.S. Marshal from returning
Vasquez-Benitez to ICE based on the mistaken belief that ‘the BRA
provides the exclusive means of detaining a defendant criminally
charged with illegal reentry.’” Vasquez-Benitez, 919 F.3d at 553-54
(citation omitted).

16

40a
these authorities together suggests that the BRA should
be followed during the pendency of her criminal case.
C.

Considerations on Appeal

The government is entitled to take an interlocutory
appeal. See 18 U.S.C. § 3145(c). It has indicated that it will
pursue that relief.
This Court respectfully requests that the Fifth Circuit’s resulting decision not only adjudicate the legal issues, but also help the judges of the trial courts fulfill our
duty “to eliminate unjustifiable expense and delay” in
criminal proceedings. Fed. R. Crim. P. 2. Magistrate
Judges, Assistant U.S. Attorneys, Assistant Federal Public Defenders, CJA panel attorneys, Deputy U.S. Marshals, and Probation Officers have spent an extraordinary
amount of time arranging and conducting detention hearings and other criminal proceedings in these cases. Our
Magistrate Judges have determined that a number of the
accused are acceptable candidates for pretrial release.
Yet, when Magistrate Judges have ordered their release
under carefully-crafted conditions, ICE has shoved those
findings aside in direct contravention of the Magistrate
Judge’s orders. These hearings and orders are rendered
a nullity.
The easiest resolution, administratively speaking,
would be if Magistrate Judges could be relieved from
their obligation under the BRA to conduct detention hearings for alien-defendants, so all involved could uniformly
defer to ICE detention. However, in this Court’s view, the
Magistrate Judges are bound by the statute, and relief
from any obligation under the BRA would contradict Congress’ instructions. Alternatively, perhaps the appellate
court could clarify for ICE when its detention of an aliendefendant like Baltazar-Sebastian can commence. Either
way, all involved would appreciate some clear instructions.

41a
IV. Conclusion
Ultimately, whether to pursue deportation proceedings, criminal prosecution, or both, is up to the Executive
Branch. However, once the Executive invokes the jurisdiction of this Court, the government cannot then circumvent an Order of Release under the BRA by way of the
INA. Such interference with the criminal proceedings
does not honor both statutes and presents a practical
problem with the administration of justice. Accordingly,
the government’s motion for reconsideration is denied.
The defendant shall remain released subject to the
conditions previously set by the Magistrate Judge.
SO ORDERED, this the 19th day of December, 2019.
s/ CARLTON W. REEVES
United States District Judge

42a
APPENDIX C

United States Court of Appeals
for the Fifth Circuit
No. 20-60067

UNITED STATES OF AMERICA,
Plaintiff-Appellant,
versus
MELECIA BALTAZAR-SEBASTIAN,
Defendant-Appellee,
Appeal from the United States District Court
For the Southern District of Mississippi
USDC No. 3:19-CR-173-1
ON PETITION FOR REHEARING EN BANC
(Opinion 3/10/2021 , 5 Cir., _________ , _________ F.3D
_________ )
Before BARKSDALE, SOUTHWICK, and GRAVES, Circuit
Judges.

43a
PER CURIAM:
(X)

Treating the Petition for Rehearing En Banc as
a Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. No member of the
panel nor judge in regular active service of the
court having requested that the court be polled
on Rehearing En Banc (FED. R. APP. P. and 5TH
CIR. R. 35), the Petition for Rehearing En Banc
is DENIED.

( )

Treating the Petition for Rehearing En Banc as
a Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. The court having
been polled at the request of one of the members
of the court and a majority of the judges who are
in regular active service and not disqualified not
having voted in favor (FED. R. APP. P. and 5TH
CIR. R. 35), the Petition for Rehearing En Banc
is DENIED.

44a
APPENDIX D
8 U.S.C. § 1226

(a) Arrest, detention, and release
On a warrant issued by the Attorney General, an alien
may be arrested and detained pending a decision on
whether the alien is to be removed from the United
States. Except as provided in subsection (c) and pending
such decision, the Attorney General—
(1) may continue to detain the arrested alien; and
(2) may release the alien on—
(A) bond of at least $1,500 with security approved
by, and containing conditions prescribed by,
the Attorney General; or
(B) conditional parole; but
(3) may not provide the alien with work authorization
(including
an
“employment
authorized”
endorsement or other appropriate work permit),
unless the alien is lawfully admitted for
permanent residence or otherwise would (without
regard to removal proceedings) be provided such
authorization.
(b) Revocation of bond or parole
The Attorney General at any time may revoke a bond or
parole authorized under subsection (a), rearrest the alien
under the original warrant, and detain the alien.
(c) Detention of criminal aliens
(1) Custody
The Attorney General shall take into custody any alien
who—

45a
(A) is inadmissible by reason of having
committed any offense covered in section
1182(a)(2) of this title,
(B) is deportable by reason of having
committed any offense covered in section
1227(a)(2)(A)(ii), (A)(iii), (B), (C), or (D) of
this title,
(C) is
deportable
under
section
1227(a)(2)(A)(i) of this title on the basis of
an offense for which the alien has been
sentence [1] to a term of imprisonment of
at least 1 year, or
(D) is inadmissible under section 1182(a)(3)(B)
of this title or deportable under section
1227(a)(4)(B) of this title,
when the alien is released, without regard to whether
the alien is released on parole, supervised release, or
probation, and without regard to whether the alien
may be arrested or imprisoned again for the same
offense.
(2) Release
The Attorney General may release an alien described
in paragraph (1) only if the Attorney General decides
pursuant to section 3521 of title 18 that release of the
alien from custody is necessary to provide protection
to a witness, a potential witness, a person cooperating
with an investigation into major criminal activity, or
an immediate family member or close associate of a
witness, potential witness, or person cooperating with
such an investigation, and the alien satisfies the
Attorney General that the alien will not pose a danger
to the safety of other persons or of property and is
likely to appear for any scheduled proceeding. A
decision relating to such release shall take place in

46a
accordance with a procedure that considers the
severity of the offense committed by the alien.
(d) Identification of criminal aliens
(1) The Attorney General shall devise and implement
a system—
(A) to make available, daily (on a 24-hour basis), to
Federal, State, and local authorities the
investigative resources of the Service to
determine whether individuals arrested by
such authorities for aggravated felonies are
aliens;
(B) to designate and train officers and employees
of the Service to serve as a liaison to Federal,
State, and local law enforcement and
correctional agencies and courts with respect
to the arrest, conviction, and release of any
alien charged with an aggravated felony; and
(C) which uses computer resources to maintain a
current record of aliens who have been
convicted of an aggravated felony, and
indicates those who have been removed.
(2) The record under paragraph (1)(C) shall be made
available—
(A) to inspectors at ports of entry and to border
patrol agents at sector headquarters for
purposes of immediate identification of any
alien who was previously ordered removed and
is seeking to reenter the United States, and
(B) to officials of the Department of State for use
in its automated visa lookout system.
(3) Upon the request of the governor or chief
executive officer of any State, the Service shall

47a
provide assistance to State courts in the
identification of aliens unlawfully present in the
United States pending criminal prosecution.
(e) Judicial Review
The Attorney General’s discretionary judgment
regarding the application of this section shall not be
subject to review. No court may set aside any action or
decision by the Attorney General under this section
regarding the detention or release of any alien or the
grant, revocation, or denial of bond or parole.
8 U.S.C. § 3142

(a) In General.—Upon the appearance before a judicial
officer of a person charged with an offense, the judicial
officer shall issue an order that, pending trial, the
person be—
(1) released on personal recognizance or upon
execution of an unsecured appearance bond, under
subsection (b) of this section;
(2) released on a condition or combination of
conditions under subsection (c) of this section;
(3) temporarily detained to permit revocation of
conditional release, deportation, or exclusion
under subsection (d) of this section; or
(4) detained under subsection (e) of this section.
(b) Release on Personal Recognizance or Unsecured
Appearance Bond.—The judicial officer shall order
the pretrial release of the person on personal
recognizance, or upon execution of an unsecured
appearance bond in an amount specified by the court,
subject to the condition that the person not commit a
Federal, State, or local crime during the period of

48a
release and subject to the condition that the person
cooperate in the collection of a DNA sample from the
person if the collection of such a sample is authorized
pursuant to section 3 of the DNA Analysis Backlog
Elimination Act of 2000 (42 U.S.C. 14135a),[1] unless
the judicial officer determines that such release will
not reasonably assure the appearance of the person as
required or will endanger the safety of any other
person or the community.
(c) Release on Conditions.—
(1) If the judicial officer determines that the release
described in subsection (b) of this section will not
reasonably assure the appearance of the person as
required or will endanger the safety of any other
person or the community, such judicial officer shall
order the pretrial release of the person—
(A) subject to the condition that the person not
commit a Federal, State, or local crime during
the period of release and subject to the
condition that the person cooperate in the
collection of a DNA sample from the person if
the collection of such a sample is authorized
pursuant to section 3 of the DNA Analysis
Backlog Elimination Act of 2000 (42 U.S.C.
14135a); and
(B) subject to the least restrictive further
condition, or combination of conditions, that
such judicial officer determines will
reasonably assure the appearance of the
person as required and the safety of any other
person and the community, which may include
the condition that the person—
(i)

remain in the custody of a designated
person, who agrees to assume

49a
supervision and to report any violation of
a release condition to the court, if the
designated person is able reasonably to
assure the judicial officer that the person
will appear as required and will not pose
a danger to the safety of any other
person or the community;
(ii)

maintain employment, or, if unemployed,
actively seek employment;

(iii) maintain or commence an educational
program;
(iv) abide by specified restrictions on
personal associations, place of abode, or
travel;
(v)

avoid all contact with an alleged victim of
the crime and with a potential witness
who may testify concerning the offense;

(vi) report on a regular basis to a designated
law enforcement agency, pretrial
services agency, or other agency;
(vii) comply with a specified curfew;
(viii) refrain from possessing a firearm,
destructive device, or other dangerous
weapon;
(ix) refrain from excessive use of alcohol, or
any use of a narcotic drug or other
controlled substance, as defined in
section 102 of the Controlled Substances
Act (21 U.S.C. 802), without a
prescription by a licensed medical
practitioner;

50a
(x)

undergo available medical, psychological,
or psychiatric treatment, including
treatment for drug or alcohol
dependency, and remain in a specified
institution if required for that purpose;

(xi) execute an agreement to forfeit upon
failing to appear as required, property of
a sufficient unencumbered value,
including money, as is reasonably
necessary to assure the appearance of
the person as required, and shall provide
the court with proof of ownership and the
value of the property along with
information
regarding
existing
encumbrances as the judicial office may
require;
(xii) execute a bail bond with solvent sureties;
who will execute an agreement to forfeit
in such amount as is reasonably
necessary to assure appearance of the
person as required and shall provide the
court with information regarding the
value of the assets and liabilities of the
surety if other than an approved surety
and the nature and extent of
encumbrances against the surety’s
property; such surety shall have a net
worth which shall have sufficient
unencumbered value to pay the amount
of the bail bond;
(xiii) return to custody for specified hours
following release for employment,
schooling, or other limited purposes; and

51a
(xiv) satisfy any other condition that is
reasonably necessary to assure the
appearance of the person as required and
to assure the safety of any other person
and the community.
In any case that involves a minor victim under
section 1201, 1591, 2241, 2242, 2244(a)(1),
2245, 2251, 2251A, 2252(a)(1), 2252(a)(2),
2252(a)(3),
2252A(a)(1),
2252A(a)(2),
2252A(a)(3), 2252A(a)(4), 2260, 2421, 2422,
2423, or 2425 of this title, or a failure to
register offense under section 2250 of this
title, any release order shall contain, at a
minimum, a condition of electronic monitoring
and each of the conditions specified at
subparagraphs (iv), (v), (vi), (vii), and (viii).
(2) The judicial officer may not impose a financial
condition that results in the pretrial detention of
the person.
(3) The judicial officer may at any time amend the
order to impose additional or different conditions
of release.
(d) Temporary Detention To Permit Revocation of
Conditional Release, Deportation, or Exclusion.—
If the judicial officer determines that—
(1) such person—
(A) is, and was at the time the offense was
committed, on—
(i)

release pending trial for a felony under
Federal, State, or local law;

(ii)

release pending imposition or execution
of sentence, appeal of sentence or
conviction, or completion of sentence, for

52a
any offense under Federal, State, or local
law; or
(iii) probation or parole for any offense under
Federal, State, or local law; or
(B) is not a citizen of the United States or lawfully
admitted for permanent residence, as defined
in section 101(a)(20) of the Immigration and
Nationality Act (8 U.S.C. 1101(a)(20)); and
(2) such person may flee or pose a danger to any other
person or the community;
such judicial officer shall order the detention of
such person, for a period of not more than ten days,
excluding Saturdays, Sundays, and holidays, and
direct the attorney for the Government to notify
the appropriate court, probation or parole official,
or State or local law enforcement official, or the
appropriate official of the Immigration and
Naturalization Service. If the official fails or
declines to take such person into custody during
that period, such person shall be treated in
accordance with the other provisions of this
section, notwithstanding the applicability of other
provisions of law governing release pending trial
or deportation or exclusion proceedings. If
temporary detention is sought under paragraph
(1)(B) of this subsection, such person has the
burden of proving to the court such person’s
United States citizenship or lawful admission for
permanent residence.
(e) Detention.—
(1) If, after a hearing pursuant to the provisions of
subsection (f) of this section, the judicial officer
finds that no condition or combination of conditions
will reasonably assure the appearance of the

53a
person as required and the safety of any other
person and the community, such judicial officer
shall order the detention of the person before trial.
(2) In a case described in subsection (f)(1) of this
section, a rebuttable presumption arises that no
condition or combination of conditions will
reasonably assure the safety of any other person
and the community if such judicial officer finds
that—
(A) the person has been convicted of a Federal
offense that is described in subsection (f)(1) of
this section, or of a State or local offense that
would have been an offense described in
subsection (f)(1) of this section if a
circumstance giving rise to Federal
jurisdiction had existed;
(B) the offense described in subparagraph (A) was
committed while the person was on release
pending trial for a Federal, State, or local
offense; and
(C) a period of not more than five years has
elapsed since the date of conviction, or the
release of the person from imprisonment, for
the offense described in subparagraph (A),
whichever is later.
(3) Subject to rebuttal by the person, it shall be
presumed that no condition or combination of
conditions will reasonably assure the appearance
of the person as required and the safety of the
community if the judicial officer finds that there is
probable cause to believe that the person
committed—
(A) an offense for which a maximum term of
imprisonment of ten years or more is

54a
prescribed in the Controlled Substances Act
(21 U.S.C. 801 et seq.), the Controlled
Substances Import and Export Act (21 U.S.C.
951 et seq.), or chapter 705 of title 46;
(B) an offense under section 924(c), 956(a), or
2332b of this title;
(C) an offense listed in section 2332b(g)(5)(B) of
title 18, United States Code, for which a
maximum term of imprisonment of 10 years or
more is prescribed;
(D) an offense under chapter 77 of this title for
which a maximum term of imprisonment of 20
years or more is prescribed; or
(E) an offense involving a minor victim under
section 1201, 1591, 2241, 2242, 2244(a)(1),
2245, 2251, 2251A, 2252(a)(1), 2252(a)(2),
2252(a)(3),
2252A(a)(1),
2252A(a)(2),
2252A(a)(3), 2252A(a)(4), 2260, 2421, 2422,
2423, or 2425 of this title.
(f) Detention Hearing.—The judicial officer shall hold a
hearing to determine whether any condition or
combination of conditions set forth in subsection (c) of
this section will reasonably assure the appearance of
such person as required and the safety of any other
person and the community—
(1) upon motion of the attorney for the Government,
in a case that involves—
(A) a crime of violence, a violation of section 1591,
or an offense listed in section 2332b(g)(5)(B)
for which a maximum term of imprisonment of
10 years or more is prescribed;
(B) an offense for which the maximum sentence is
life imprisonment or death;

55a
(C) an offense for which a maximum term of
imprisonment of ten years or more is
prescribed in the Controlled Substances Act
(21 U.S.C. 801 et seq.), the Controlled
Substances Import and Export Act (21 U.S.C.
951 et seq.), or chapter 705 of title 46;
(D) any felony if such person has been convicted
of two or more offenses described in
subparagraphs (A) through (C) of this
paragraph, or two or more State or local
offenses that would have been offenses
described in subparagraphs (A) through (C) of
this paragraph if a circumstance giving rise to
Federal jurisdiction had existed, or a
combination of such offenses; or
(E) any felony that is not otherwise a crime of
violence that involves a minor victim or that
involves the possession or use of a firearm or
destructive device (as those terms are defined
in section 921), or any other dangerous
weapon, or involves a failure to register under
section 2250 of title 18, United States Code; or
(2) upon motion of the attorney for the Government or
upon the judicial officer’s own motion in a case, that
involves—
(A) a serious risk that such person will flee; or
(B) a serious risk that such person will obstruct or
attempt to obstruct justice, or threaten,
injure, or intimidate, or attempt to threaten,
injure, or intimidate, a prospective witness or
juror.
The hearing shall be held immediately upon the
person’s first appearance before the judicial officer
unless that person, or the attorney for the

56a
Government, seeks a continuance. Except for good
cause, a continuance on motion of such person may
not exceed five days (not including any
intermediate Saturday, Sunday, or legal holiday),
and a continuance on motion of the attorney for the
Government may not exceed three days (not
including any intermediate Saturday, Sunday, or
legal holiday). During a continuance, such person
shall be detained, and the judicial officer, on
motion of the attorney for the Government or sua
sponte, may order that, while in custody, a person
who appears to be a narcotics addict receive a
medical examination to determine whether such
person is an addict. At the hearing, such person has
the right to be represented by counsel, and, if
financially
unable
to
obtain
adequate
representation, to have counsel appointed. The
person shall be afforded an opportunity to testify,
to present witnesses, to cross-examine witnesses
who appear at the hearing, and to present
information by proffer or otherwise. The rules
concerning admissibility of evidence in criminal
trials do not apply to the presentation and
consideration of information at the hearing. The
facts the judicial officer uses to support a finding
pursuant to subsection (e) that no condition or
combination of conditions will reasonably assure
the safety of any other person and the community
shall be supported by clear and convincing
evidence. The person may be detained pending
completion of the hearing. The hearing may be
reopened, before or after a determination by the
judicial officer, at any time before trial if the
judicial officer finds that information exists that
was not known to the movant at the time of the
hearing and that has a material bearing on the

57a
issue whether there are conditions of release that
will reasonably assure the appearance of such
person as required and the safety of any other
person and the community.
(g) Factors To Be Considered.—The judicial officer
shall, in determining whether there are conditions of
release that will reasonably assure the appearance of
the person as required and the safety of any other
person and the community, take into account the
available information concerning—
(1) the nature and circumstances of the offense
charged, including whether the offense is a crime
of violence, a violation of section 1591, a Federal
crime of terrorism, or involves a minor victim or a
controlled substance, firearm, explosive, or
destructive device;
(2) the weight of the evidence against the person;
(3) the history and characteristics of the person,
including—
(A) the person’s character, physical and mental
condition, family ties, employment, financial
resources, length of residence in the
community, community ties, past conduct,
history relating to drug or alcohol abuse,
criminal history, and record concerning
appearance at court proceedings; and
(B) whether, at the time of the current offense or
arrest, the person was on probation, on parole,
or on other release pending trial, sentencing,
appeal, or completion of sentence for an
offense under Federal, State, or local law; and
(4) the nature and seriousness of the danger to any
person or the community that would be posed by

58a
the person’s release. In considering the conditions
of release described in subsection (c)(1)(B)(xi) or
(c)(1)(B)(xii) of this section, the judicial officer may
upon his own motion, or shall upon the motion of
the Government, conduct an inquiry into the
source of the property to be designated for
potential forfeiture or offered as collateral to
secure a bond, and shall decline to accept the
designation, or the use as collateral, of property
that, because of its source, will not reasonably
assure the appearance of the person as required.
(h) Contents of Release Order.—In a release order
issued under subsection (b) or (c) of this section, the
judicial officer shall—
(1) include a written statement that sets forth all the
conditions to which the release is subject, in a
manner sufficiently clear and specific to serve as a
guide for the person’s conduct; and
(2) advise the person of—
(A) the penalties for violating a condition of
release, including the penalties for
committing an offense while on pretrial
release;
(B) the consequences of violating a condition of
release, including the immediate issuance of a
warrant for the person’s arrest; and
(C) sections 1503 of this title (relating to
intimidation of witnesses, jurors, and officers
of the court), 1510 (relating to obstruction of
criminal investigations), 1512 (tampering with
a witness, victim, or an informant), and 1513
(retaliating against a witness, victim, or an
informant).

59a
(i) Contents of Detention Order.—In a detention order
issued under subsection (e) of this section, the judicial
officer shall—
(1) include written findings of fact and a written
statement of the reasons for the detention;
(2) direct that the person be committed to the custody
of the Attorney General for confinement in a
corrections facility separate, to the extent
practicable, from persons awaiting or serving
sentences or being held in custody pending appeal;
(3) direct that the person be afforded reasonable
opportunity for private consultation with counsel;
and
(4) direct that, on order of a court of the United States
or on request of an attorney for the Government,
the person in charge of the corrections facility in
which the person is confined deliver the person to
a United States marshal for the purpose of an
appearance in connection with a court proceeding.
The judicial officer may, by subsequent order,
permit the temporary release of the person, in the
custody of a United States marshal or another
appropriate person, to the extent that the judicial
officer determines such release to be necessary for
preparation of the person’s defense or for another
compelling reason.
(j) Presumption of Innocence.—
Nothing in this section shall be construed as modifying or
limiting the presumption of innocence.

60a
APPENDIX E

IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF MISSISSIPPI
NORTHERN DIVISION
UNITED STATES OF
AMERICA
V.

MELECIA BALTAZARSEBASTIAN
a/k/a “Amparo Sanchez”

Case No. 3:19cr173-CWRFKB
DEFENDANT

UNOPOSED MOTION FOR STAY PENDING
APPEAL
Defendant Melecia Baltazar-Sebastian (the “Parties”), by and through undersigned counsel, file this her
Unopposed Motion for Stay Pending Appeal with Stipulation, hereto attached, to wit:
1. On December 19, 2019 the Court entered an order
requiring the United States Immigration and Customs
Enforcement agency (ICE) to release Ms. Baltazar-Sebastian from its custody because this Court’s earlier order
releasing Ms. Baltazar-Sebastian from U.S. Marshal custody under the BRA precluded her immediate arrest and
detention by ICE. Dkt.47.
2. Following the entry of the Court’s December 19,
2019 enforcement order, on January 7, 2020 the United
States moved that this Court stay this case pending the
outcome of the appeal. Dkt.49. Ms. Baltazar-Sebastian did
not oppose that motion. Dkt.50. The court granted the

61a
motion on August 14, 2020 and this case has since been
stayed.
3. Following an interlocutory appeal by the United
States, a panel of the Fifth Circuit reversed the Court’s
enforcement order on March 10, 2021. See United States
v. Baltazar-Sebastian, No. 20-60067 (5th Cir. Mar. 10,
2021). The Fifth Circuit denied a timely petition for rehearing en banc on April 13, 2021. See id. (5th Cir. Apr.
13, 2021).
4. Ms. Baltazar-Sebastian intends to file a timely petition for a writ of certiorari on or before Friday, September 10, 2021.
5. The United States Government and Ms. BaltazarSebastian (the “Parties”) have reached a stipulation and
agreed that these herein criminal and immigration proceedings should be stayed pending the outcome of Ms.
Baltazar-Sebastian’s timely Petition for a Writ of Certiorari. Through their respective authorized representatives, the Parties have agreed to a stipulation that has
been executed and attached to this Unopposed Motion. A
substantive portion of the Parties’ stipulation provides in
part:
a. The parties shall jointly move that the Court
continue the stay of this case pending the filing and
disposition of Ms. Baltazar-Sebastian’s petition for
a writ of certiorari.
b. The United States shall stay further removal
proceedings involving Ms. Baltazar-Sebastian
pending the filing and disposition of Ms. BaltazarSebastian’s petition for a writ of certiorari.
WHEREFORE PREMISES CONSIDERED, Defendant Melecia Baltazar-Sebastian prays that this Court
will enter an Order granting her Unopposed Motion with
its Stipulation. Defendant Melecia Baltazar-Sebastian

62a
further prays for such relief as this Court may deem just
and proper under the premises.
RESPECTFULLY SUBMITTED, this the 21st
day of April, 2021.
DEFENDANT
Melecia Baltazar-Sebastian
By: /s/ T. Murry Whalen
T. Murry Whalen,
MSB No. 100618
THE WHALEN FIRM
P.O. Box 23222
Jackson, MS 39225
601.209.9195
Omodare B. Jupiter - FPD
FEDERAL PUBLIC DEFENDER - Jackson
200 S. Lamar, Suite 200-N
Jackson, MS 39201
601.948.4284
Jeremy Jong
NJ Bar No. 066472014
The Law Office of Jeremy Jong
3527 Banks St.
New Orleans, LA 70119
504.510.6396
CERTIFICATE OF SERVICE
I, T. Murry Whalen, the attorney for Melecia
Baltazar-Sebastian, hereby certify that on the 21st day of
April, I electronically filed the foregoing with the Clerk of

63a
Court using ECF system which sent notification of such
filing to all parties of record to the electronic mail address
on file with the clerk.
By: /s/ T. Murry Whalen
T. Murry Whalen

64a
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
NORTHERN DIVISION
UNITED STATES OF
AMERICA,
Plaintiffs,
Criminal No. 3:19-cr-173CWR-FKB

V.

MELECIA BALTAZARSEBASTIAN
a/k/a “Amparo Sanchez,”
Defendant.
STIPULATION TO FURTHER STAY OF CRIMINAL
AND IMMIGRATION PROCEEDINGS PENDING THE
OUTCOME OF A TIMELY PETITION FOR A WRIT OF
CERTIORARI
Plaintiff the United States of America and Defendant
Melecia Baltazar-Sebastian, by and through undersigned
counsel, stipulate and agree as follows:
1. On December 19, 2019, the Court entered an order
requiring the United States Immigration and Customs
Enforcement agency (ICE) to release Ms. Baltazar-Sebastian from its custody because this Court’s earlier order
releasing Ms. Baltazar-Sebastian from U.S. Marshal custody under the BRA precluded her immediate arrest and
detention by ICE. Dkt.47.
2. Following the entry of the Court’s December 19,
2019 enforcement order, on January 7, 2020 the United
States moved that this Court stay this case pending the

65a
outcome of the appeal. Dkt.49. Ms. Baltazar-Sebastian did
not oppose that motion. Dkt.50. The Court granted the
motion on August 14, 2020, and this case has since been
stayed.
3. Following an interlocutory appeal by the United
States, a panel of the Fifth Circuit reversed the Court’s
enforcement order on March 10, 2021. See United States
v. Baltazar-Sebastian, No. 20-60067 (5th Cir. Mar. 10,
2021). The Fifth Circuit denied a timely petition for rehearing en banc on April 13, 2021. See id. (5th Cir. Apr.
13, 2021).
4. Ms. Baltazar-Sebastian intends to file a timely petition for a writ of certiorari on or before Friday, September 10, 2021.
5. IN VIEW OF THE FOREGOING, the Parties
stipulate and agree, through their respective authorized
representatives, as follows:
a. The parties shall jointly move that the Court
continue the stay of this case pending the filing and
disposition of Ms. Baltazar-Sebastian’s petition for
a writ of certiorari. The parties are agreed that all
time during the interim is subject to exclusion under the Speedy Trial Clock, pursuant to Title, 18,
United States Code, Section 3161(h)(7)(A), in that
ends of justice served by the continuance outweighs the best interest of the public and the defendant in a speedy trial.
b. The United States shall stay further removal
proceedings involving Ms. Baltazar-Sebastian
pending the filing and disposition of Ms. BaltazarSebastian’s petition for a writ of certiorari.
6. This Agreement shall be governed by and construed in accordance with the laws of the United States.
Any action to enforce this Agreement, and any and all

66a
disputes relating directly or indirectly to or in any way in
connection with this Agreement, shall hereafter be heard
exclusively in the U.S. District Court for the Southern
District of Mississippi, and shall be brought by motion
filed in the case (No. 3:19-cr-00173).
7. No part of this Agreement is or will be considered
confidential by the parties.
8. This Agreement shall be binding upon, and inure to
the benefit of, all successors and assigns of the Parties
hereto.
9. This Agreement constitutes the entire agreement
between the Parties with respect to the subject matter of
this Agreement and merges any and all prior discussions
and negotiations between the Parties.
10. This Agreement shall not be changed, altered, or
modified in any manner except in a writing signed by all
Parties to this Agreement.
11. Counsel to all Parties hereto have materially participated in the negotiation and drafting of this Agreement. Further, each Party and counsel for each Party has
carefully reviewed this Agreement. None of the Parties
hereto shall be considered to be the drafter of this Agreement or any provision hereof for the purpose of any statute, case law, or rule of interpretation or construction that
would or might cause any provision to be construed
against the drafter hereof.
12. Each provision of this Agreement shall be considered severable, and if for any reason any provision is
deemed to be invalid or contrary to any existing or future
law, ordinance, regulation, or covenant, all other provisions shall remain in effect.

67a
13. This Agreement may be executed in counterparts.
Facsimile or PDF-ed signatures shall be considered as
valid signatures as of the date thereof.
14. Each of the Parties represents that this Agreement and its recitals are being voluntarily executed by
such party without any duress or undue influence of any
kind on that party by any person, firm, or entity.
[Signature Pages Follow]
IN WITNESS WHEREOF, the following Parties
have caused this Amendment to be executed by their respective duly authorized officers as of April 21, 2020.
On behalf of Plaintiff the United States, by its counsel:
DARREN J. LaMARCA
Acting United States Attorney
/s/ Shundral H. Cole
Shundral H. Cole, MSB #103003
Assistant United States Attorney
Gaines H. Cleveland, MSB #6300
Assistant United States Attorney
1575 Twentieth Avenue
Gulfport, MS 39501
(228) 563-1560
On behalf of the Defendant, Melecia Baltazar-Sebastian,
by her counsel:
/s/ T. Murry Whalen
T. Murry Whalen, 100618
THE WHALEN FIRM

68a
P.O. Box 23222
Jackson, MS 39225
601.209.9195
Omodare B. Jupiter - FPD
FEDERAL PUBLIC DEFENDER - Jackson
200 S. Lamar, Suite 200-N
Jackson, MS 39201
601.948.4284
Jeremy Jong
NJ Bar No. 066472014
The Law Office of Jeremy Jong
3527 Banks St.
New Orleans, LA 70119
504.510.6396

69a
APPENDIX F

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
NORTHERN DIVISION
UNITED STATES OF AMERICA
PLAINTIFF
VERSUS

CRIMINAL NO. 3:19
-cr-173-CWR-FKB

MELECIA BALTAZAR-SEBASTIAN.
also known as AMPARO SANCHEZ
DEFENDANT
DETENTION HEARING
BEFORE THE HONORABLE JUDGE
LINDA R. ANDERSON
UNITED STATES MAGISTRATE JUDGE
SEPTEMBER 3, 2019
JACKSON, MISSISSIPPI
APPEARANCES:
FOR THE GOVERNMENT: KEESHA MIDDLETON,
ESQUIRE
FOR THE DEFENDANT: T. MURRY WHALEN,
ESQUIRE
TRANSCRIBED BY:
TAMIKA T. BARTEE, CCR #1782
OFFICIAL COURT REPORTER
501 E. Court Street, Suite 2.500

70a
Jackson, Mississippi 39201
Telephone: (601)608-4188
E-mail: Tamika_Bartee@mssd.uscourts.gov
TABLE OF CONTENTS
Style and Appearances ........................................................1
Proceeding .............................................................................3
WITNESS: BRENT YOUNG
Direct Examination By Ms. Middleton .............................4
Cross-Examination By Ms. Whalen ..................................8
Re-Direct Examination By Ms. Middleton..................... 13
WITNESS: PATRICK RAND
Direct Examination By Ms. Whalen ................................17
Cross-Examination By Ms. Middleton ............................31
Exhibit D-1 ..........................................................................23
Exhibit D-2 ..........................................................................25
Exhibit D-3 ..........................................................................31
WITNESS: ELIZATAH IRAHETA
Direct Examination By Ms. Whalen ................................35
Cross-Examination By Ms. Middleton ............................40
Certificate Page.. ................................................................50

71a
THE COURT: Please be seated. Are you ready with
this matter?
MS. MIDDLETON: Yes, Your Honor. We’re here on
United States vs. Melecia Baltazar-Sebastian. Criminal
No. 3:19-cr-173. We’re here for a detention hearing. The
Honorable T. Murry Whalen is present, along with the
defendant, Melecia Baltazar-Sebastian.
THE COURT: All right.
MS. MIDDLETON: And the government is ready.
THE COURT: All right. Thank you, Ms. Middleton.
Let me ask our interpreter. If you would, please state
your name for the record and spell it for us, too.
THE INTERPRETER: (Inaudible.)
THE COURT: All right. Thank you so much for
coming to assist us. Is that mic on?
THE INTERPRETER: No, it wasn’t on.
THE COURT: I am sorry. Would you do it again?
THE INTERPRETER: Yes, Your Honor. Carmelina
Cadena.
THE COURT: All right. If you will, while you’re
standing, raise your right hand to be sworn.
(Interpreter sworn.)
THE COURT: Thank you. Let me ask you, Ms.
Cadena, have you had a chance to communicate with the
defendant, Ms. Baltazar-Sebastian?
THE INTERPRETER: Yes, Your Honor, I have.
THE COURT: And have you had any difficulty
communicating?

72a
THE INTERPRETER: No, Your Honor. She
understands me clearly.
THE COURT: All right. What language are you
interpreting?
THE INTERPRETER: A-k-a-t-e-k-o, Akateko.
THE COURT: All right. Thank you so much.
It may work best if you remain seated at this table.
We have some hand microphones. You can use that and
they can share that one. We need to make sure that
everybody can be heard and that it is recording.
All right. If you will, Ms. Middleton, if you’ll call your
witness.
MS. MIDDLETON: The government calls Special
Agent Brent Young.
(Witness sworn.)
BRENT YOUNG,
Having been duly sworn and examined, testified as
follows:
DIRECT EXAMINATION
BY MS. MIDDLETON:
Q. Would you please state your name for the record?
A. Brent Young.
Q. Mr. Young, where are you employed?
A. I am a special agent with Homeland Security
investigations.
Q. How long have you held that position?
A. Approximately ten years.

73a
Q. Were you working in that capacity on or about August
7th, 2019?
A. Yes, ma’am, I was.
Q. And would you please tell the Court whether or not you
-- you are aware of a -- an employment -- an immigration
raid that occurred on or about August 7th, 2019?
A. Yes, ma’am. Homeland Security Investigations
conducted the most criminal and administrative search
warrants in seven different locations throughout central
Mississippi on August 7th of this year.
Q. And was one of those locations Koch Foods?
A. Yes. In Morton, Mississippi.
Q. And is that location within the Southern District of
Mississippi?
A. Yes, it is within Scott County.
Q. During that mission, did you officially encounter an
individual by the name of Melecia Baltazar-Sebastian?
A. Yes, ma’am, they did.
Q. And what happened after that encounter?
A. She was questioned as to her alienage to determine if
she was lawfully present in the United States, at which
time she admitted that she was a citizen and national of
Guatemala that had not legally entered the United States.
She was then taken into custody and processed for
administrative removal proceedings.
Q. Let me ask you this. Does the defendant also have any
other names or aliases?
A. Yes. She did state that she was using the name to work
under.

74a
Q. Is that name -- excuse me if I butcher it. Is that name,
Amparo Sanchez?
A. Yes, that’s correct.
Q. I want to talk a little bit about the search warrant that
was executed on August 7, 2019. During this execution,
did officers seize any documents relating to Ms. Baltazar?
A. Yes. We seized I-9 records, which is employment
eligibility verification forms that all employers are
required to complete. It determines whether or not an
individual is legally authorized to work in the United
States. We did find one I-9 form that was prepared in the
alias name of Melecia Baltazar-Sebastian.
Q. And what else was significant about that I-9?
A. It stated that she was a United States citizen and there
were two different identity documents, copies of those
identity documents that were attached to that I-9 form
that shows that she was eligible to be employed in the
United States.
Q. Now those identification documents, along with the I9, where were they found?
A. They were found in the human resources office of Koch
Foods.
Q. At some point, was Ms. Baltazar-Sebastian arrested for
being illegally present in the United States?
A. Yes. She was arrested at the plant at Koch Foods in
Morton prior to being taken to Rankin County for
processing.
Q. And was she questioned?
A. Yes, she was.
Q. And you may have already said this. Did she make any
admissions in regards to her entering the United States?

75a
A. May I refer to my notes?
Q. Yes, you may.
A. There were actually two different statements made.
The initial statement made was that she entered on or
about sometime in 2007, in a vehicle into Houston, Texas,
but Houston is not a border town. And then in the sworn
statement in administrative proceeding, she stated that
she entered sometime in 2007, on foot at or near
Brownsville, Texas.
Q. Was there any admission regarding the aliases at this
point?
A. Yes. She also stated that she had used the alias,
Amparo Sanchez.
Q. And was that also an admission about the use of the
fraudulent social security card?
A. She did state that she bought the fraudulent document
from a guy. That was her words, from a guy for $1,000.
MS. MIDDLETON: I tender the witness.
THE COURT: Cross-examination.
MS. WHALEN: Yes, Your Honor. May it please the
Court.
THE COURT: You may proceed.
CROSS-EXAMINATION
BY MS. WHALEN:
Q. Agent Young?
A. Yes, ma’am.
Q. Were you one of the agents that actually -- are you the
agent that interviewed Ms. Baltazar?
A. No, ma’am, I was not.

76a
Q. Okay. Were you present when she was arrested?
A. No, ma’am. I was not at the Koch Foods facility.
Q. So you relied on others’ documents to prepare for this
testimony today?
A. Yes, ma’am. That’s correct.
Q. And do you have those documents with you now?
A. I do not.
Q. Okay. What do you have with you now to testify?
A. I have the notes that I took from reviewing the
discovery packet.
MS. WHALEN: May I approach, Your Honor, to look
at his notes?
THE COURT: Okay. That’s your first question.
MS. WHALEN: Yes, Your Honor. I would like to
approach to look at Agent Young’s notes he used in
preparation for his testimony.
THE COURT: All right. She’s requesting to review
his notes. Any objection?
MS. MIDDLETON: There are no objections as to the
notes regarding this particular defendant.
THE COURT: All right. You may approach.
MS. WHALEN: Thank you, Your Honor.
BY MS. WHALEN:
Q. You have more than one page. Is this just related to
Ms. Baltazar-Sebastian?
THE COURT: Excuse me. I need you to go to the
microphone so they can pick up your question.
MS. WHALEN: I apologize, Judge.

77a
BY MS. WHALEN:
Q. You handed me one sheet, Agent Young. Is this the
only sheet that’s limited to Ms. Baltazar?
A. Correct.
Q. All right.
MS. WHALEN: Thank you, Your Honor. Court’s
indulgence.
BY MS. WHALEN:
Q. Agent Young, what documents did you rely upon to
prepare these notes?
A. As I stated previously, I used this discovery packet
prepared by the U.S. Attorney’s Office.
Q. And you did not interview Ms. Baltazar yourself,
correct?
A. No, ma’am, I did not.
Q. Did you happen to review anything from U.S.
Probation, documents from U.S. Probation?
A. No, ma’am, I did not.
Q. The documents that you reviewed as it relates to Ms.
Baltazar-Sebastian states that she used -- she provided -when she was first encountered back on August 7, 2019,
she provided her name as Melecia Baltazar-Sebastian,
correct?
A. Yes, ma’am.
Q. And further investigation shows that Koch’s HR
department had her under a different name, correct?
A. Correct.
Q. All right. And that’s the name that’s on her indictment,
correct?

78a
A. Yes, ma’am. That’s my understanding. I do not have
the indictment here in front of me.
Q. Okay. The would be that Amparo Sanchez?
A. Yes, ma’am.
Q. Besides using that name to work under, there are no
other activities that Ms. Baltazar used that name for,
correct?
A. To my knowledge, no, ma’am.
Q. Okay. There’s nothing to show that she used it to
purchase an automobile, is there?
A. No, ma’am.
Q. Nothing to show she used it to rent an apartment,
correct?
A. Not to my knowledge, no.
Q. And are you aware that she has a minor child, sir?
A. If I may refer to my notes. I believe she did indicate
that she had a child that was approximately 17 years of
age.
Q. Okay. And are you aware that minor child is now
without her parents, her mother or father?
A. We did take steps to ensure that there was an adult
caregiver present for any minor children. I’m personally
not familiar with her situation, but there were steps in
place at the time of these enforcement actions to ensure
that any minor child did have an adult caregiver present
if one of the parents or caregivers were going to be
detained.
Q. All right. Sitting here today, Agent Young, you don’t
know where that minor child lives at or who’s taking care
of that minor child, do you?

79a
A. No, ma’am, I personally do not.
Q. Okay. Are you aware that Ms. Baltazar is a diabetic?
A. No, ma’am, I am not.
Q. Was that provided in any document showing her health
issues?
A. I do not recall seeing anything. When she was taken
into custody and transported to the federal detention
center in Louisiana, they would have had a nurse that
would have examined her.
Q. But you don’t know that sitting here today, do you?
A. No, ma’am. That’s just our standard practice.
Q. And your testimony is only limited to the discovery that
you read that was given to you by the U.S. attorney?
A. Correct.
Q. You have no information that she is a danger to the
community, do you?
A. No, ma’am.
Q. And you have no information that she is a flight risk, do
you?
A. Other than her ties to her native country of Guatemala
that she states she has -- her mother and father are both
Guatemalan citizens, but I do not know if she personally
still has family in Guatemala.
Q. Okay. But you know that she has a minor child in Scott
County that’s in the city of Morton, do you not?
A. I know she has a minor child, but I do not know the
whereabouts of that child.
Q. And when the AUSA asked you about her being
present here illegally -- she’s only charged with one count
of use of a social security number?

80a
A. That’s correct.
Q. And there is no charge for her for illegal entry at this
stage?
A. No, ma’am. To my knowledge, she had no prior
immigration history.
Q. And from the documents you were able to provide, she
does have an address, does she not, here in the Southern
District of Mississippi?
A. Yes, ma’am.
Q. And that address is 26 Sycamore Street in Morton,
Mississippi?
A. There were two different addresses. I don’t recall
which was which. There was one that was listed on
Sycamore Street on the I-9 form, and there was a
different address that she provided at the processing also
on Sycamore Street.
MS. WHALEN: All right. Court’s indulgence.
THE WITNESS: Would you like me to clarify that
after reviewing my notes?
BY MS. WHALEN:
Q. No, sir. Thank you, though.
A. Thank you.
MS. WHALEN: That’s all, Your Honor. Tender the
witness.
THE COURT: Redirect.
REDIRECT
BY MS. MIDDLETON:
Q. Agent Young, as to the last question that you were
asked, would you please clarify your statement?

81a
A. Yes. The I-9 form, which showed a preparation date of
-- one moment, please -- August 5, 2015, listed an address
under the alias name of Paul A. Sanchez as being 12
Sycamore Street, Morton, Mississippi. The address
provided at the time of processing on August 7th of this
year for Ms. Baltazar-Sebastian was 26 Sycamore Street,
Morton, Mississippi.
Q. Thank you. You were asked -THE COURT: I’m sorry. There was a 2015
encounter?
THE WITNESS: That was prepared from the I-9,
the employment eligibility form.
THE COURT: Oh, the I-9 was dated in 2015?
THE WITNESS: Yes, Your Honor. Yes, ma’am.
BY MS. MIDDLETON:
Q. You were asked about whether or not you personally
interviewed Ms. Baltazar. Is it common practice in your
profession as a special agent to review files or properties
by other agents?
A. Yes, ma’am, it is.
Q. And provide testimony?
A. Yes, ma’am.
Q. I want to ask you a little bit about the question that was
asked regarding the defendant as a flight risk. Is she a
citizen of the United States?
A. No, ma’am, she is not.
Q. And also, as to a flight risk, the fraudulent
identification that was in the file, did it bear her -- did it
bear the name, Melecia Baltazar-Sebastian, or did it bear
the fraudulent or the alias?

82a
A. It bore the fraudulent alias name. There was a Georgia
identification card and a social security card both bearing
that Amparo Sanchez.
Q. And the social security number, was this the social
security number connected with Melecia BaltazarSebastian, or one utilized by the alias?
A. It was not connected with Melecia Baltazar-Sebastian,
to my knowledge.
MS. MIDDLETON: No further questions.
THE WITNESS: Thank you, Your Honor.
MS. MIDDLETON: Your Honor, the government
would like to offer the pretrial services report under seal.
THE COURT: Any objection?
MS. WHALEN: Your Honor, it bears to note that
specifically a pretrial interview was not conducted on Ms.
Baltazar. Also, to correct her date of birth. Ms. Baltazar
is 50 years old. She was born January 15, 1969. Her
physical health, they state -- and probably because she
was not interviewed, they did not know that she is diabetic
and she is on medication. That she has been having some
issues.
THE COURT: All right. You can offer testimony as
to those facts.
MS. WHALEN: Yes, Your Honor. But other than
that, we wouldn’t object, but to those corrections, and also
to reference in the record that she wasn’t interviewed. But
to make those corrections to her date of birth as well as
her health issues.
THE COURT: All right. It will be admitted with the
noted objection and proposed corrections by counsel for
the defendant.

83a
MS. WHALEN: Thank you, Your Honor.
MS. MIDDLETON: Thank you, Your Honor. If I
could point to the family ties section of the pretrial
services report. In particular, it should be noted that the
defendant failed to report an address. Also, both her
parents are citizens of Guatemala. She herself is a citizen
of Guatemala.
THE COURT: Are you moving into argument now?
MS. MIDDLETON: No, Your Honor, I would like to
proffer from a portion of the -THE COURT: From the pretrial report?
MS. MIDDLETON: Yes, Your Honor.
THE COURT: All right. Who would be your witness?
MS. MIDDLETON: Yes, Your Honor, I would like to
call -- well, I can just offer it under seal and make it during
argument.
THE COURT: All right.
MS. MIDDLETON: We don’t have to call a witness.
This is all the government has.
THE COURT: All right. The pretrial services report
will be admitted with the earlier corrections, additions
noted. With that, does the government rest?
MS. MIDDLETON: Yes, Your Honor.
THE COURT: All right. What would the defense
have?
MS. WHALEN: Yes, Your Honor, we have a witness
we would like to call, Attorney Patrick Rand.
THE COURT: All right. If you’ll come forward,
please.
(Witness sworn.)

84a
THE COURT: You may proceed.
MS. WHALEN: Your Honor. May it please the
Court.
PATRICK RAND,
Having been duly sworn and examined, testified as
follows:
DIRECT EXAMINATION
BY MS. WHALEN:
Q. Attorney Rand, state your full name and spelling -- the
first and last -- for the Court, please?
A. Patrick Rand, P-a-t-r-i-c-k, R-a-n-d.
Q. And I addressed you as Attorney Rand. Is that your
occupation?
A. Yes, ma’am.
Q. Okay. And where are you licensed at, sir?
A. In the state of Mississippi.
Q. And how long have you been licensed?
A. Since 1994.
Q. And what’s your area of practice, Attorney Rand?
A. Currently, it is primarily immigration-related practice.
Q. Okay. And explain some of those cases that you have
on immigration, sir.
A. Generally, I represent folks that have somehow ran
afoul with the immigration department in detained
matters. And I work on getting them bonds, and then
further representation in immigration court in either New
Orleans, Memphis, Atlanta, or over in Texas.
Q. So you practice quite a bit in federal court?

85a
A. Well, it is a federal administrative court, yes, ma’am.
Q. Okay. Federal administrative court, thank you. And
what type of proceedings do you handle concerning the
immigration -- concerning immigration?
A. I do null proceedings, as well as individual hearings,
which are applications for relief before the immigration
court to try to gain status for individuals that do not have
it.
Q. And when you say “gain status,” would you encounter
some individuals who may have pending criminal charges
in federal court?
A. Yes, ma’am.
Q. Okay. And let’s just take Ms. Baltazar, for example, for
misuse of a social security number. Would you be able to
handle those persons with those type charges?
A. Yes, ma’am.
Q. And would they still be likely to obtain, I guess, a work
visa, even with those charges?
A. Well, it would depend on the application that was filed.
In her case, then I believe the application that she would
be eligible for would be to attempt to try to seek asylum
here in the United States, stating that she was afraid to
return to her country of origin. And one of the parts of
asylum application is the opportunity to obtain work
authorization after waiting 150 calendar days from the
filing of the application and the completion of a biometrics
test.
Q. All right. And you first encountered Ms. Baltazar in a
different situation, correct?
A. That’s correct.

86a
Q. Okay. Explain to the Court how Ms. Baltazar came to
contact you or how your services were retained.
A. Ms. Baltazar-Sebastian came to see me in regards to
her daughter’s immigration case.
Q. Okay. And can you tell the Court the daughter’s name,
please?
A. Her daughter’s name is Melecia Guadalupe Tomas
Baltazar.
Q. Okay. And she does go by Lapita, correct, the
daughter?
A. Sometimes, yes, ma’am.
Q. Okay. All right. And do you see Lapita in the courtroom
today?
A. Yes.
Q. And she is your client?
A. Yes, sir.
Q. Is she also a minor, sir?
A. Yes, she is.
Q. Okay. Further tell the Court how you came to
encounter Ms. Baltazar-Sebastian and her minor child?
A. The defendant’s daughter entered the United States as
a minor, an unaccompanied minor, and as such, she was
placed with the Office of Refugee Resettlement, which is
the entity where individuals who are under 18 are placed
with until a family member or sponsor can be located so
that they can be then placed with them.
Q. In the Office of Refugee Resettlement, is that a branch
of Homeland Security?
A. Well, it’s a part of the -- the broader Homeland
Security, yes, ma’am.

87a
Q. Okay. And at some point, there had to be a document
that was completed, correct?
A. An application has to be filed with whichever facility is
holding the minor so that those individuals can vet the
person to make sure that they’re not releasing them to
someone that they would not want a minor to be in the
custody of. So yes, there is an application process.
Q. And just to be clear, her daughter is also named
Melecia as well, correct?
A. That is correct.
Q. Okay. Can you tell us when the application was done?
A. It was probably done the end of 2016 or the very first
of 2017 because the child was released from the custody
of the Office of Refugee Resettlement on February 2, 2017
to her mother.
Q. Okay. She was approved to be released to the mother?
A. The minor child, yes.
Q. When you say “the mother” what is her relationship as
recognized by the Office of Refugee Resettlement?
A. They call it a sponsor.
Q. Explain what a sponsor is as it relates to an
unaccompanied minor?
A. Well, if you’re under the age of 18 and if you’re in a
federal immigration proceeding, then you have to have
someone go to court with you until you reach the age of 18
and that person also has to be served with any legal paper
of process up until the person’s 18th birthday for process
to be effective.
Q. So Ms. Baltazar-Sebastian has to not only sponsor her
daughter, but she has to accept and receive notice of any
court proceeding, concerning her minor child?

88a
A. Yes, ma’am.
Q. And she has to make sure the sponsor, herself, and the
minor child is present at the court proceedings?
A. That is correct.
Q. And do you have the verification of release documents
in front of you?
A. I do.
Q. And when was that approved, sir?
A. As I said, she was released to her mother on February
2nd of 2017.
Q. And what address was given?
A. On this particular document, at the time, they were
living on Highway 80 in Morton. But I do know that they
have moved to Sycamore Street in Morton.
Q. And so, they have kept you updated regarding their
residency, their move?
A. Yes, ma’am. I have met both the defendant and the
defendant’s daughter on a number of occasions in my
office in regards to the daughter’s immigration case.
Q. And in that section it says, “acknowledgment of
sponsor care agreement.” Attorney Rand, what does that
expressly state?
A. It does state that the person to whom the Office of
Refugee Resettlement releases a minor to has to act like
their parent and has to provide for them and has to make
all of their appointments.
Q. It expressly says that the minor’s care, safety and
wellbeing and the sponsor’s responsibility for ensuring
the minor is present at all future proceedings, correct?
A. Yes, ma’am.

89a
Q. With the department of Homeland Security?
A. That is correct.
Q. As well as with the Department of Justice?
A. That is correct.
Q. And this is an official document, correct?
A. Yes, ma’am.
Q. Okay. And as an official document, it states that this
should be considered as evidence, that the above-named
sponsor is given physical custody of the above-named
minor on the date indicated on the form, correct?
A. Yes, ma’am.
MS. WHALEN: At this time, Your Honor, I offer into
evidence the Office of Refugee Resettlement, Division of
Children’s Services Verification of Release.
THE COURT: Okay. I’m going to need to ask the
audience to bear with me and please be quiet because I
am listening to the interpreter and trying to hear as well.
So thank you.
Any objection?
MS. MIDDLETON: No objection.
THE COURT: It will be admitted as D-1.
(Exhibit D-1 marked for identification.)
MS. WHALEN: Yes, Your Honor, thank you. Your
Honor, may I approach?
THE COURT: Yes. Give me a title of it for the record.
MS. WHALEN: As a style on the form, Judge
Anderson, Office of Refugee Resettlement, Division of
Children’s Services, Verification of Release.

90a
THE COURT: All right. Thank you. Let’s say
“verification of release.”
MS. WHALEN: Yes, Your Honor.
THE COURT: Thank you.
MS. WHALEN: May I approach, Your Honor?
THE COURT: It is admitted, yes.
BY MS. WHALEN:
Q. As a part of the verification of release and Ms.
Baltazar-Sebastian being a sponsor, she is required to
make sure that the minor child, her child, is educated,
correct?
A. That is correct.
Q. And that is a part of the conditions that’s on this
verification of release?
A. Yes.
Q. Where does her child go to school?
A. She goes to high school over in Morton.
Q. And who is the guardian of her as provided by the
school records?
A. Her mother, the defendant.
Q. All right. And do you see the defendant in the
courtroom today?
A. Yes, ma’am. She’s seated at the defense table.
MS. WHALEN: Let the Court record -THE COURT: It will reflect that the witness has
identified the defendant.
MS. WHALEN: Thank you, Judge.
BY MS. WHALEN:

91a
Q. And as part of all school records, does it have an
address listed?
A. They do.
Q. And what’s the address, Attorney Rand?
A. 26 Sycamore Street in Morton.
Q. And does it reflect her daughter’s name on that record,
too?
A. It does.
Q. Is there a seal on that documentation?
A. Yes.
MS. WHALEN: At this time, Your Honor, I offer into
evidence the school records of Melecia Guadalupe
Baltazar, the daughter of the defendant.
THE COURT: Any objections?
MS. MIDDLETON: No objections.
THE COURT: It will be admitted as D-2, school
records.
(Exhibit D-2 admitted.)
MS. WHALEN: Your Honor, as the government
pointed out, I will offer this document under seal.
THE COURT: All right. It will be admitted under
seal. Did you look at the verification of release to make
sure there were no personal identifiers?
MS. WHALEN: I will, Your Honor.
THE COURT: All right. And if there are -- if it has
the name of the minor child, in general, I am sealing those.
MS. WHALEN: Yes, Your Honor. You are correct.
There are -- the minor’s date of birth. So again, Your
Honor, we would ask this one be placed under seal as well.

92a
THE COURT: All right.
MS. WHALEN: Now the next set of documents I’ll
just ask for as a composite, but through Attorney Rand.
And the government has received their copies.
THE COURT: All right. Go ahead.
BY MS. WHALEN:
Q. Attorney Rand, you had been able to communicate with
the family during the process of the minor child’s
proceeding, correct?
A. That is correct.
Q. And you’ve also been contacted here recently
concerning the mother’s immigration issues, correct?
A. That is correct.
Q. So documents were provided to you concerning -- well,
let me put it like this: Do you know where Ms. BaltazarSebastian lives at?
A. Yes, ma’am. She lives at 26 Sycamore Street in Morton,
Mississippi.
Q. Were there some documents that were provided to you
that shows where she lives at?
A. Yes. In preparation for the possibility of representing
her in immigration court in a bond proceeding, I needed
to be able to verify an address, property, and residence,
and I was provided a current electric bill from Entergy of
Mississippi. And I was provided a rental agreement, a
copy of a car title, and a letter from a church in Morton
regarding the defendant.
Q. And let’s go through one at a time, Attorney Rand.
A. Yes, ma’am.

93a
Q. On that rental agreement, when was that rental
agreement signed, sir?
A. In May of 2017.
Q. By whom, sir?
A. It says Melecia Baltazar.
Q. And how much does she pay in rent a month?
A. $250.
Q. And what -- address -A. I am sorry. It is a $250 deposit and $500 per month for
rent.
Q. And what address is -- where is the house that she’s
renting located at?
A. It is 26 Sycamore Street in Morton, Mississippi.
Q. And you have a bill in front of you, sir?
A. Yes, ma’am.
Q. Okay. And what type of bill is that?
A. It is a power bill from Entergy of Mississippi.
Q. And whose name is that bill under, sir?
A. Melecia Baltazar.
Q. All right. And does it show a payment, sir?
A. It does.
Q. Do you see how much the payment is?
A. I do.
Q. How much?
A. 92.59 cents.
Q. And you see an address on there for the service
location?

94a
A. Yes, ma’am. 26 Sycamore Street in Morton,
Mississippi.
Q. Do you see a -- do you have an application for a title in
front of you, Mr. Rand -- Attorney Rand?
A. I have a certificate of title. I don’t have the application.
Q. Fair enough. The certificate of title is for what?
A. It is for a 1997 Nissan Altima.
Q. From what state?
A. The state of Mississippi.
Q. And what is the date of that title?
A. The date is April 6, 2018.
Q. And who is that vehicle titled to?
A. Melecia Sebastian-Baltazar.
Q. What address?
A. 26 Sycamore Street in Morton, Mississippi.
Q. What address was it mailed to, sir?
A. The same address.
Q. 26 Sycamore Street in Morton, Mississippi?
A. Yes, ma’am.
THE COURT: You may have said it, but what name
is the rental agreement in?
THE WITNESS: May of 2017, Your Honor.
THE COURT: In whose name?
THE WITNESS: The defendant’s, Melecia Baltazar.
THE COURT: Baltazar?
THE WITNESS: Yes, ma’am.

95a
MS. WHALEN: Court’s indulgence.
BY MS. WHALEN:
Q. Did you have an opportunity, Attorney Rand, to find
out anything about her religious worship?
A. Yes, ma’am. It’s often the case with folks from
Guatemala that live here in central Mississippi, they are
also Catholics in the Catholic church. Father Roberto
Mena provided me with a letter stating that she had been
a parishioner for 12 years. And, according to the pastor,
comes to mass every Sunday.
Q. And prior to her detention, her arrest, Attorney Rand,
where was Ms. Baltazar working?
A. That I do not know.
Q. Okay. Do you know how long she has resided in
Morton?
A. It is my understanding that it has been for more than
ten years.
Q. All right. Thank you.
Attorney Rand, when individuals come to you
concerning immigration issues, and they have matters
pending before immigration court, what is the likelihood
of them leaving the country and fleeing?
A. In my personal practice experience, it has happened. I
am not going to lie and say that it never happens, but it is
rare for folks that actually hire a private attorney to
represent them in immigration court not to show up for
their hearings. There are no public defenders in
immigration court because it is an administrative court
and folks can represent themselves. But I would say over
the past 15 years, maybe once or twice a year one of my
clients would not show up for court.

96a
Q. And you had contact with Ms. Baltazar and her family?
A. Yes, ma’am.
Q. Okay. And you had no trouble contacting them, have
you, or Ms. Baltazar, in this case, since she’s the sponsor?
A. No. I generally talk to my client, the daughter, but Ms.
Baltazar, whenever they come to the office, the defendant
brings my client to my office. She’s very involved with her.
MS. WHALEN: Court’s indulgence.
BY MS. WHALEN:
Q. And based on those contacts with Ms. Baltazar, do you
have any concern of her being a flight risk?
A. I do not.
Q. Where is the minor child’s father?
A. I do not know.
Q. Okay. Has he ever been present in any of the
proceedings?
A. No, ma’am.
Q. Has he contacted you concerning his minor child?
A. No, ma’am.
Q. So the only parent is Ms. Baltazar?
A. That is correct.
Q. Who is the sponsor?
A. That is correct.
MS. WHALEN: Tender the witness, Your Honor.
At this time, Your Honor, I would like to move into
evidence based on Attorney Rand’s testimony, the rental
agreement in my client’s name, the Entergy bill that is
also in my client’s name, the certificate of title to an

97a
automobile that’s in my client’s name, as well as a letter
from the Catholic church from Father Roberto Mena.
THE COURT: Any objection?
MS. MIDDLETON: No objection.
THE COURT: Then it will be admitted as D-3, a
composite exhibit.
(Exhibit D-3 admitted.)
MS. WHALEN: Your Honor, I do have the original
here, but can I -- and I provided the government -- the
government did look at the original as well. Can I just
provide copies to the Court?
THE COURT: Any objection to that?
MS. MIDDLETON: No, Your Honor.
THE COURT: All right. The copies will be fine.
MS. WHALEN: I offer the original seal to the
Catholic church letter.
Tender the witness, Your Honor.
THE COURT: Cross-examination.
MS. MIDDLETON: May I proceed?
THE COURT: You may.
CROSS-EXAMINATION
BY MS. MIDDLETON:
Q. Attorney Rand, I want to talk to you a little bit about
the first document you were asked about, the application
that was made for verification of release of Ms. Baltazar’s
daughter?
A. Yes, ma’am.

98a
Q. In that application, is Ms. Baltazar-Sebastian required
to provide any identifiers, identifying information, such as
social security number or anything like that?
A. Ma’am, I have reviewed those applications before, but
I did not prepare the application for the defendant to have
her daughter released, so I cannot tell you what
information was provided.
MS. MIDDLETON: May I approach, Your Honor?
THE COURT: You may.
BY MS. MIDDLETON:
Q. I want you to take a look at something. Is there a
section on there for alias, if any?
A. Yes, ma’am.
Q. Did Ms. Baltazar provide or confirm the use of her
alias, Amparo Sanchez? Do you see that on that
document?
A. No, ma’am.
Q. Does it, in fact, ask if there are any aliases used?
A. It does.
Q. I want to turn your attention also to the letter from the
church.
A. Yes, ma’am.
Q. I believe in that letter it states that she’s been a
parishioner for 12 years?
A. Yes, ma’am.
Q. What name does the church refer to her as?
A. Melecia Baltazar.

99a
Q. And there is no indication that the church was even
aware that she had been utilizing an alias, correct? From
the face of this letter?
A. From the face of the letter, no.
Q. There was also a rental agreement that was -- that you
mentioned. Do you know how many people live at the
address?
A. I know that my -- my client, the defendant’s daughter,
lives with her mother, but as to any other individuals that
live at that address, no, ma’am, I don’t know.
Q. Okay. So you only know that the daughter lives there
and Ms. Baltazar?
A. Yes, ma’am.
Q. But you have no knowledge if anyone else lives there at
26 Sycamore?
A. No, ma’am. No, ma’am.
Q. How old is Ms. Baltazar’s daughter?
A. She is 17 years old.
Q. Do you know when she entered the United States?
A. As I said earlier, I believe she entered the latter part
of 2016. She was released to her mother in February of
2017. Generally, it’s been my experience that it usually
takes a month or two to -- for the Office of Refugee
Resettlement to find a suitable sponsor to release
someone to.
Q. So the latter part -- you said approximately the latter
part of -A. I would assume the latter part of 2016, yes, ma’am.
Q. Do you know who arranged for her to be brought to the
United States?

100a
A. I do not.
Q. You mentioned earlier that she was unaccompanied?
A. Yes, ma’am.
Q. So she came -- from all knowledge, she came alone?
A. She did not have an adult with her at the time she was
encountered at the border, that’s correct.
Q. Do you know where she was encountered?
A. Not off the top of my head, no, ma’am.
Q. To your knowledge, was Ms. Baltazar already in the
United States when her daughter crossed the border?
A. Yes, ma’am. I believe that she was.
MS. MIDDLETON: No further questions.
THE COURT: Any redirect?
MS. WHALEN: No, Your Honor.
THE COURT: Okay. You may step down.
MS. WHALEN: May Attorney Rand be excused?
THE COURT: Yes, you may be excused. What would
the defense have?
MS. WHALEN: We call Elizatah Iraheta.
Your Honor, Ms. Elizatah speaks English but not
that well, so I would ask whether she prefers to speak in
Spanish or English.
THE COURT: Okay. Does she -- will you see if she
speaks standard Spanish or -- will you assist us?
THE INTERPRETER: Of course, Your Honor.
(Witness sworn.)
THE COURT: All right. I need you to speak up.

101a
To our interpreter, would you please state your
name?
THE INTERPRETER: Janis Palma, J-a-n-i-s P-a-lm-a. I am a federally-certified court interpreter.
THE COURT: Thank you. I remind you that you
remain under oath.
THE INTERPRETER: Sorry.
THE COURT: I administered the oath previously
and you remain under oath.
THE INTERPRETER: Thank you, Your Honor.
THE COURT: You may proceed.
ELIZATAH IRAHETA,
Having been duly sworn and examined, testified as
follows:
DIRECT EXAMINATION
BY MS. WHALEN:
Q. Ms. Elizatah, can you state your full name for the
record, the first and last and spelling it, please?
A. My name is Elizatah Iraheta, E-l-i-z-a-t-a-h I-r-a-h-et-a.
Q. And would it be okay if I call you Ms. Elizatah since I A. Of course, you can.
Q. Because I say your last name horribly, and I apologize.
A. It’s fine.
Q. Do you recognize this young lady at the table with me?
A. Yes.
Q. Will you tell the Court who she is?

102a
A. She is Melecia Baltazar.
Q. Okay. And how do you know Ms. Baltazar?
A. I met her many years ago when her husband was still
here.
Q. All right. And how long has she been in Morton,
Mississippi?
A. From what I can remember, maybe she’s been here for
ten years.
Q. All right. And you have known her for that length of
time, ten years?
A. Yes. I have been living in the state for 19 years.
Q. And could you tell us your status in this country?
A. Mine?
Q. Yes, ma’am.
A. Yes. I have a work permit.
Q. And so you are legally -- you have permission to be in
this country?
A. Yes, ma’am.
Q. And you are allowed to work legally in this country?
A. Of course.
Q. And you’ve known Ms. Baltazar from the time she lived
in Morton, Mississippi, correct?
A. Yes.
Q. Have you guys ever worked together?
A. Yes, we worked at the Koch Foods company. I have
been working there for 17 years and she worked there
with me in the deboning department.

103a
Q. And would it would be correct that she’s worked at
Koch Foods for at least 12 years?
A. Yes. I guess we could -- but I remember more or less
ten years because she was in another department before.
Q. Do you know her daughter, Ms. Elizatah?
A. Yes, we call her Lapita.
Q. And is she in the courtroom today?
A. Yes.
MS. WHALEN: At this time, Your Honor, I would
ask that the defendant’s daughter stand up so she can be
identified.
BY MS. WHALEN:
Q. Is that Lapita?
A. Yes. She is the daughter. She’s her daughter.
Q. Is she still in school?
A. Yes, at the one in Morton.
Q. All right. And Ms. Elizatah, since she has -- since her
mother has been in custody, have you checked on Lapita?
A. Yes. We stay close and sometimes we’ll go to the school
to see if there are any errands that need to be taken care
of. We’ve been staying close to her.
Q. So you’ve checked on Lapita, correct?
A. Yes.
Q. And how far do you live from the address at 26
Sycamore Street?
A. Like six or seven blocks.
Q. And she does have other siblings, correct?

104a
A. Yes. She has one brother and one sister and there are
small children.
Q. Okay. Are you aware that they are also going through
an immigration process as well?
A. Yes.
THE COURT: Let me understand. She’s saying that
the defendant has two small children younger than her?
MS. WHALEN: I will clarify.
BY MS. WHALEN:
Q. She has a daughter named Anna?
A. Yes.
THE COURT: Who has a daughter named Anna?
MS. WHALEN: I am sorry.
BY MS. WHALEN:
Q. Ms. Baltazar has an older daughter named Anna?
A. Yes. She’s older than Lapita.
Q. And she’s roughly 29 years old?
A. Yes.
Q. All right. And the defendant has a son as well, correct?
A. Yes, Pedro.
Q. And he is roughly 24 years old?
A. Yes. He also has a child.
Q. And how old is Pedro’s child?
A. I think he’s like year four. He’s young.
Q. And Anna has a child as well?
A. Two.

105a
Q. And how old are her children?
A. I would calculate seven to eight years.
Q. For one or both?
A. Both are between seven and eight.
Q. Okay. And Ms. Elizatah, both Anna and Pedro are
going through the immigration process now, correct?
A. Correct.
Q. And are you aware they have hearings in Louisiana in
December?
A. Yes.
Q. Ms. Elizatah, are you telling this Court that you will
vouch for Ms. Baltazar to make sure that she comes to
Court?
A. Of course.
Q. Would you -- if she’s allowed out on a bond and she does
commit a crime, would you contact the Court or probation
to make them aware?
A. Yes, I would. But I don’t believe that she would do
anything of this sort because she’s been here to struggle
for the benefit of her family. She loves her children very
much and I don’t think she would do anything to harm
them. She wouldn’t try to flee or anything like that.
Q. Is there another person in the audience today that
came with you?
A. Yes, also a friend of hers.
Q. And what is his name?
A. Oh, I don’t know. He’s not someone that I have known.
Q. All right. Fair enough.
MS. WHALEN: Court’s indulgence.

106a
BY MS. WHALEN:
Q. Do you know if Ms. Baltazar-Sebastian has medical
issues, Ms. Elizatah?
A. She’s diabetic.
MS. WHALEN: Tender the witness, Your Honor.
THE COURT: Cross-examination.
CROSS-EXAMINATION
BY MS. MIDDLETON:
Q. Did you mention that you check on the defendant’s
daughter, Ms. Baltazar’s daughter?
A. Yes.
Q. Do you check -- does she live at the 26 Sycamore Street
location?
A. Yes.
Q. Who else lives at that location?
A. Her son, Pedro, her daughter, Anna, and her
grandchildren live there.
Q. And so the son and the daughter are also in
proceedings, correct?
A. Yes.
Q. You were asked earlier if you would vouch for Ms.
Baltazar? Are you also willing to take responsibility if she
does not comply with her terms of release?
A. That is correct.
MS. MIDDLETON: No further questions.
THE COURT: All right. Any redirect?
MS. WHALEN: No, Your Honor.
THE COURT: You may step down.

107a
What would the defense have?
MS. WHALEN: No, Your Honor, I would just like
the Court to recognize that the daughter is here in the
courtroom, as well as another family member, Raymond
Espanoza.
THE COURT: All right. So he’s come all this
distance. Stand up for us, Mr. Espanoza. He doesn’t have
to stand. I just wanted to acknowledge him since he came.
MS. WHALEN: Thank you, Your Honor.
THE COURT: All right. Anything further from the
defense?
MS. WHALEN: None, Your Honor.
THE COURT: All right. The defense has rested. Any
rebuttal by the government?
MS. MIDDLETON: No rebuttal.
THE COURT: All right. The Court will hear brief
argument.
MS. MIDDLETON: Your Honor, the government
would just like to point out that Ms. Baltazar entered
approximately 2007. Her child was born approximately
2001. We would also like to point out that according to
testimony from Attorney Rand, her daughter entered
illegally unaccompanied, and that was approximately
2016. Between that time, Ms. Baltazar has been in the
United States and had not been in contact with her
daughter. We would also like to point out that the church
-THE COURT: I am sorry. Was there testimony that
she had not been in contact with her daughter?
MS. MIDDLETON: Your Honor, we would like to
point out, there is a gap. The child was born in 2001. Ms.

108a
Baltazar entered in 2007. Her daughter entered
approximately in 2016. She crossed the border in 2016.
The defendant has been present in the United States for
approximately ten years. The government is just pointing
out that the defendant has been present in the United
States approximately ten years, and her daughter only
entered in 2016.
We also would like to point out that the application
that was entered into evidence by defense -- I believe it
was Exhibit 1 -- Ms. Baltazar-Sebastian was asked
specifically about any aliases that she had used. It says
aliases, if any. She failed to disclose that. She was using
an alias at the time, Amparo Sanchez. We also would like
to point out neither her church or Attorney Rand listed
her name, but only the name Melecia Baltazar-Sebastian.
The address that’s provided, 26 Sycamore Street, the
second witness -- defense witness pointed out that her son
and her daughter reside there, along with grandchildren.
Your Honor, we would just like to point out that we
don’t know if there are any other individuals who reside
at the address. Based on the use of -- before I get there.
The family ties -- I wanted to point to the pretrial services
report wherein Ms. Baltazar failed to report an address. I
want to point to her parents and her own citizenship of
Guatemala. Based on her family ties, her use of -- her
current charge, the government contends that she is a
flight risk and asks for detention on that basis.
THE COURT: Thank you. For the defense?
MS. WHALEN: Yes, Your Honor.
MS. WHALEN: May it please the Court.
THE COURT: You may proceed.
MS. WHALEN: Your Honor, the government
pointed out that the pretrial service report does not list

109a
any children, but the pretrial services report does list her
address as 26 Sycamore Avenue. While the report does
not list any of her children, the report specifically states
that a pretrial interview was not conducted. Had there
been one, Your Honor, then, of course, that would have
included her minor child and her minor children, as well
as her health issues and her correct date of birth.
We contend, Your Honor, that this Court has been
provided clear and convincing evidence that there are
conditions, or a combination of conditions, that reasonably
assure that the safety of Ms. Baltazar -- by a
preponderance of the evidence, excuse me -- be, Your
Honor, that she is not a flight risk. To begin, Your Honor,
Attorney Rand provided documentation showing that Ms.
Baltazar is the sponsor of her own minor child.
Now, to be clear, she didn’t list any aliases. But as this
Court noted, and her alias -- and oftentimes the
defendants that come before this Court are limited to just
employment. Her alias was limited to just employment,
being able to work and to provide. When she contacted
Attorney Rand, not only contacted him, but hired him, it
was for the purpose of being a sponsor to her minor child.
Homeland Security, as well as the Department of
Justice, knew -- or should have known at the time, that
this woman did not have legal residence in this country,
but nonetheless, gave sponsorship of Lapita to her mother
there in Morton, Mississippi. The document clearly states
that.
Also, as a sponsor, she’s required to make sure that
this child is educated. We provided the document of the
school record from Morton High School, showing that
Lapita does attend school there in Morton, Mississippi,
Scott County, and that her mother is on her school
records; that name being, Melecia Baltazar-Sebastian.

110a
The address being, 26 Sycamore Street there in Morton,
Mississippi.
A part of that -- also a part of that verification of
release and that document from Office of Refugee
Resettlement, she is required to not only have custody,
but house this child.
Again, Your Honor, we provided the documents
showing the rental agreement. She pays $500 a month.
The other property title in her name, Your Honor, is a
vehicle. That vehicle is titled to Melecia BaltazarSebastian, so she’s acquiring property in her name. She is
renting a home to house her children and her
grandchildren. And to be clear, Your Honor, in order for
her to be a sponsor, she has to make sure Lapita attends
those hearings. If she’s not in compliance, then she won’t
have a sponsor and she goes back into custody because
she no longer has a sponsor. Ms. Baltazar-Sebastian is
required to attend those hearings with her minor child.
Attorney Rand spoke about, yes, Lapita is his client, but
her mother attends those meetings with him. He’s had no
problems communicating with the mother or the minor.
We’ve heard character evidence from a coworker, Ms.
Elizatah, who has a work visa. She testified that she’s
known her for at least ten years. Ms. Baltazar has worked
at Koch Foods for 12 years, but Ms. Elizatah was able to
testify that she’s known her a little bit better than ten
years. So there’s definite ties to the community.
As Attorney Rand said, you don’t invest in an
attorney or hire an attorney for immigration proceedings
just to run. We now know that she has three children that
are going through the immigration process. She has spent
the money to retain the attorneys, as well as to make sure
they attend their hearings in Louisiana.

111a
We’ve now had Ms. Elizatah to testify that she would
vouch that she’s of good character, as well as if there are
any issues concerning any of her bond issues, then she will
contact this Court or a probation officer.
Finally, Your Honor, there’s only -- the only limited
criminal history as to this charge of -- or fraudulent use of
a social security number. And again, it is only in
connection with her employment.
We contend, Your Honor, by a preponderance of the
evidence, we’ve been able to show that Ms. BaltazarSebastian is not a flight risk and we would ask that Your
Honor set a bond for her, as well as those conditions to
allow her to be at home with her daughter and to attend
those proceedings involving her daughter with the Office
of Refugee Resettlement. Thank you.
THE COURT: All right. Thank you.
The Court has considered all the testimony and the
evidence, and as stated repeatedly, that I would rule
according to what is presented to the Court. So since very
little was presented, the Court had to rule accordingly. In
this instance, I have some evidence that I am going to
consider under the 3142 factors, the nature and
circumstance of the offense charged, the weight of the
evidence, the nature and the circumstances which show
that this defendant used or is charged with misuse of a
social security number or the use of an alias. Looking at
the circumstances, though, the evidence supports the fact
that this defendant used the social security number and
the alias only in connection to an effort to work.
The Court has been presented documents showing
lease agreements, rental agreements, and other
documents that represented her true name. She did not
use an alias in order to get any of those things.

112a
Looking at the history and characteristics, family
ties, employment, financial resources, length of residence
in the community, community ties and past conduct, these
all weigh in the defendant’s favor in that there is evidence
of family ties in Guatemala; but there is evidence that
there are even stronger ties that she has with this
community; that being, a minor daughter, two other
children and three grandchildren. She has no criminal
history of any kind presented to the Court. There is
evidence that she’s been in the country some 12 years and
in that 12 years, she’s only worked -- not even a traffic
ticket is reflected.
There is also evidence that she has been compliant
with Court orders and other appointments related to
court proceedings in that her children are going through
proceedings in immigration and she has been responsible
for making sure that her daughter was compliant.
I note that the defendant’s true name is on the
verification form. While it does not list the aliases, this
information is available to the Department of Health and
Human Services and to ICE at that time and she’s used
what has been represented as her true name.
I have letters from the church and other -- as I said,
documents showing her ties to the community. This
defendant has presented sufficient evidence to find that
there’s reasonable cause to believe that there are
conditions, or a combination of conditions, that would
assure her appearance in Court. It is not alleged that she
poses any danger, and the Court does not find such.
So the Court is going to set bond in the amount of
$10,000 unsecured. Ms. Baltazar-Sebastian, that means
that you would not have to pay any money to be released
unless you violate the terms of release. There are some
other terms and conditions that you would have to abide

113a
by. There are standard conditions for everybody that’s
released and I am going to go over those with you in just
a little while.
Is there anything further from the defense?
MS. WHALEN: Nothing, Your Honor.
THE COURT: From the government?
MS. MIDDLETON: Nothing, Your Honor.
THE COURT: Okay. Thank you.
----------------------

COURT REPORTER’S CERTIFICATE
I, Tamika T. Bartee, Certified Court Reporter, in and
for the State of Mississippi, Official Court Reporter for
the United States District Court, Southern District of
Mississippi, do hereby certify that the above and
foregoing pages contain a full, true, and correct transcript
of the proceedings had in the aforenamed case at the time
and place indicated, which proceedings were recorded by
courtroom deputy clerk and later transcribed by me from
a digital recording to the best of my skill and ability. I
further certify that the transcript fees and format comply
with those prescribed by the Court and Judicial
Conference of the United States.
THIS the 23rd day of June, 2020.
/s / Tamika T. Bartee, CCR
Tamika T. Bartee, CCR #1782
Official Court Reporter
United States District Court
Tamika_Bartee@mssd.uscourts.gov

